<html>
<title> - NORTH KOREA BACK AT THE BRINK?</title>
<body><pre>[Senate Hearing 111-312]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-312
 
                     NORTH KOREA BACK AT THE BRINK?

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                  U.S. GOVERNMENT PRINTING OFFICE
55-463                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Bosworth, Ambassador Stephen, Sprecial Representative for North 
  Korea Policy, Department of State, Washington, DC..............     5
    Prepared statement...........................................     8
    Responses to questions submitted for the record by Senator 
      Robert P. Casey, Jr........................................    56
Cha, Dr. Victor D., senior adviser and Korea Chair, CSIS, D.S. 
  Song Professor of Government and Asia Studies, Georgetown 
  University, Washington, DC.....................................    27
    Prepared statement...........................................    29
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lindborg, Nancy, president, Mercy Corps, Washington, DC..........    42
    Prepared statement...........................................    44
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Revere, Evans J.R., president, the Korea Society, New York, NY...    31
    Prepared statement...........................................    33
Sigal, Leon V., director, Northeast Asia Cooperative Security 
  Project at the Social Science Research Council, Brooklyn, NY...    37
    Prepared statement...........................................    38

                                 (iii)




                    NORTH KOREA: BACK AT THE BRINK?

                              ----------                              


                        THURSDAY, JUNE 11, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:04 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Cardin, Casey, Shaheen, 
Lugar, Corker, DeMint, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    We're here today to discuss recent troubling developments 
in the Korean Peninsula and the road ahead in dealing with the 
Democratic People's Republic of Korea.
    We're going to hear first from the administration's point 
man on North Korea and my friend and constituent, Ambassador 
Stephen Bosworth, the Dean of the Fletcher School of Law and 
Diplomacy at Tufts University.
    We'll also hear an expert panel of witnesses who together 
have more than 100 years of experience dealing with the 
challenges that we face in North Korea.
    North Korea's test of a long-range ballistic missile last 
April, followed by its second nuclear test last month, are, 
frankly, reckless and irresponsible acts that do nothing to 
advance North Korea's security.
    I was pleased to see that last night in New York the 
Permanent Five Members of the U.N. Security Council agreed to 
speak with one voice and tell North Korea that its conduct is 
unacceptable. The Draft Security Council resolution which we 
expect to be voted on soon imposes a sweeping new arms embargo 
on North Korea and also bans financial transactions linked to 
North Korea's nuclear weapons and ballistic missile programs.
    Significantly, it calls upon Member States to inspect all 
cargo to and from North Korea on the high seas, at seaports, 
and at airports if countries have reason to believe the cargo 
contains material related to North Korea's nuclear program or 
other weapons programs.
    The Obama administration should be commended for this 
strong united outcome and China deserves recognition, as well.
    As North Korea's ally and largest trading partner, China 
can play a decisive role in the peaceful resolution of this 
crisis. I was in China when North Korea conducted its second 
nuclear test and I am convinced, based on the meetings I had 
and the language used as well as the body language interpreted, 
that China shares our opposition to the North's pursuit of 
nuclear weapons.
    We can all be forgiven for feeling that we've been here 
before. As one knowledgeable observer wrote to me recently, we 
are now ``hip deep into the third North Korean nuclear 
crisis.''
    The first crisis ended in 1994 with the signing of the 
agreed framework which froze the North's production of 
plutonium for 8 years. In 2002, the Bush administration 
confronted North Korea with allegations that it was cheating on 
the framework, but the Bush administration ruled out direct 
talks to resolve the issue. The result was the second nuclear 
crisis: the demise of the agreed framework itself, North 
Korea's withdrawal from the Nuclear Non-Proliferation Treaty 
and the quadrupling of North Korea's stockpile of fissile 
material.
    So today, we confront a more dangerous North Korea that 
says it is determined to bolster its nuclear deterrent in 
defiance of its neighbors and other members of the 
international community.
    How we deal with North Korea this time around will have 
grave implications not just for maintaining peace and stability 
in Northeast Asia, for our alliances with South Korea and 
Japan, but it will particularly have an impact on our ongoing 
nonproliferation efforts with respect to Iran and any other 
would-be nuclear power.
    Step 1 is to get a unified response from the United 
Nations. That result appears to be eminent. But then we must 
resist the temptation to go into a defensive crouch. The past 
teaches us that benign neglect is not a viable option. America 
must lead efforts to stop the current negative cycle of action 
and reaction and begin the hard diplomatic work needed to 
deliver results.
    As we seek to engage, we should remember the counsel of 
former Secretary of Defense William Perry who advised us to 
deal with North Korea ``as it is, not as we would wish it to 
be. We should not assume that North Korea sees the world the 
way we do.''
    Recent developments should convince us to test our 
assumptions about North Korea and its motives. For instance, 
when I was in China discussing this with Chinese leaders, it 
was clear that there are a number of reasons for North Korea's 
current actions. One begs the question, Is North Korea really 
just trying to get our attention in a fairly sophomoric but 
nevertheless extraordinarily dangerous way?
    The fact is they already had our attention. From day one, 
the Obama administration made a point of offering to engage 
directly and given the events of the past 6 months, it seems 
equally possible that North Korea is simply consumed with its 
internal leadership succession issues or possibly even simply 
responding to its dislike of the policies of South Korea in the 
recent period and that has encouraged it to adopt a brash and 
defiant posture against external pressure.
    The greatest likelihood--I suspect that Ambassador Bosworth 
would agree--is that there's some of all of these involved in 
the position that they're taking.
    Some observers on the outside have concluded that diplomacy 
with North Korea is essentially hopeless. Well, I completely 
and bluntly disagree with that, as I'm confident Ambassador 
Bosworth does. It's an imperfect tool, but the fact is that 
even with North Korea, when we engaged in diplomacy, diplomacy 
paid some dividends and it could again in the future.
    So finally, there's a common assumption that North Korea 
will sell anything to anyone. North Korea's export of nuclear 
technology to Syria appears to prove that case, but I believe, 
and I think many share this and the President included, that 
it's worth testing whether a combination of multilateral 
enforcement initiatives, such as the Proliferation Security 
Initiative, combined with cooperative threat reduction efforts 
championed by Senator Lugar, that those could alter the North's 
conduct.
    As we test our assumptions, and it's important that we do, 
and examine our options, we have to consider not only who's at 
the table but also whether to attempt to reinvigorate the six-
party talks, launch bilateral negotiations, or devise a new 
architecture.
    We also have to consider how to prioritize the many issues 
that demand attention, including nuclear proliferation, human 
rights, regional peace and security, economic development, and 
humanitarian concerns.
    I personally believe that we can get back to the six-party 
talks, that we should get back to them, and I believe we will 
get back to them. I also believe that bilateral is an important 
route to simultaneously take and I have said so for any number 
of years.
    I look forward to hearing from our witnesses on each of 
these questions. Let me just say one quick word before passing 
it to Senator Lugar.
    I know I speak for every single member of this committee 
and for every American when we express how deeply concerned we 
are on a purely humanitarian basis, the basis of common sense 
and decency, how deeply concerned we are for the fate of two 
American journalists, Laura Ling and Euna Lee, who are under 
detention in North Korea.
    We are offended by the severity and excess of the sentence 
which was pronounced on them and we hope that common sense is 
going to prevail and that North Korea will see this not as an 
opportunity to further dig a hole but as an opportunity to open 
up and reach out to the world, to suggest there is a better way 
to try to deal with all of these issues.
    We urge North Korea to do what is right and we urge them to 
do it promptly and unconditionally and to release those young 
women from custody.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                    U.S. SENATE FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman, for 
holding this hearing to review the present situation in North 
Korea.
    The recent provocative actions by North Korea that you've 
cited are moving that country toward even greater isolation. 
Almost universally, the international community has condemned 
North Korea's nuclear test, missile launches, detention of 
American reporters, and bellicose remarks.
    There's wide speculation about the motivations for North 
Korea's behavior. Some observers point to dynamics within North 
Korea surrounding the eventual leadership transition of 
Chairman Kim Jong-il. They suggest that an array of top 
security service officials and military leaders are positioning 
themselves in the transition entry by pressing for hard-line 
actions, from threatening to shoot down aircraft to stopping 
the distribution of American food aid by NGOs and even the 
World Food Programme.
    Regardless of motivation, North Korea has been engaging in 
a new level of international provocation. It's urgent that the 
United States and its partners develop policies that are clear 
and consistent. They should be willing to engage the North 
Koreans but there must be greater certainty that provocative 
steps by Pyongyang will result in predictable and meaningful 
consequences for the North Korean regime.
    I support a full review of the United States policy toward 
North Korea. Secretary Clinton has said that the administration 
is considering all options in responding to North Korea's 
latest actions and I look forward to hearing additional details 
about this review from our first witness today, Ambassador 
Bosworth.
    A number of points should be considered by the 
administration as it develops a North Korean strategy. Did the 
lack of a strong, unified, and persistent response by China, 
Russia, Japan, South Korea, and the United States to past 
provocative actions by North Korea factor into Pyongyang's 
decision to proceed with the latest nuclear test?
    Do North Korean officials believe their country's 
relationships with Iran or Syria will be permitted to develop 
without consequence if those relationships include cooperation 
on weapons of mass destruction?
    What is the nature of the cargo in North Korean planes and 
ships arriving in Burma which is sometimes a transit point for 
further global destinations?
    Russia has been transparent in its cooperation with Burma 
in the development of a nuclear reactor, reportedly for medical 
research purposes.
    Is North Korea contributing to the development of Burma's 
nuclear program and, if so, in what way?
    What level of international cooperation exists to 
scrutinize North Korea's global trading network and its 
potential proliferation route, and can such cooperation be 
improved?
    Is there a clear understanding of the efficacy and current 
status of agreements related to the six-party talks and the 
North Korean nuclear program? In essence, would any new 
negotiations be starting from square one?
    The United States and China have cooperated closely in the 
six-party process but our priorities are not identical with 
regard to North Korea. While the United States is focused on 
eliminating North Korea's nuclear weapons program, China's 
primary concern relates to regional stability, a point not lost 
on North Korean officials.
    Given recent provocations, have the prospects for more 
concerted Chinese actions been improved?
    To facilitate the broadest possible base of support for 
moving ahead, I encourage the Obama administration officials to 
actively consult with Congress as they proceed in developing a 
comprehensive North Korea strategy.
    I join with Chairman Kerry in welcoming our Ambassador 
Stephen Bosworth, Victor Cha and Nancy Lindborg, Evans Revere 
and Leon Sigal to today's hearing. We look forward to their 
insights and hopefully their inspiration.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar. Those are, as 
always, thoughtful and important questions you asked and I'm 
confident that we'll get the answers to them in the course of 
the afternoon.
    Let me just say that we do have two panels today and we'll 
try to get everybody through here in an appropriate manner.
    Victor Cha is the former Director of Asian Affairs at the 
National Security Council and he's a professor at Georgetown 
University. Evans Revere is the president of the Korea Society 
and former Deputy Assistant Secretary of State for the East 
Asia and Pacific Affairs. Leon Sigal is a professor at the 
Social Science Research Council in New York and author of 
``Disarming Strangers'' which is a diplomatic history of the 
1994 Agreed Framework, and Nancy Lindborg is president of Mercy 
Corps and has worked inside North Korea to help deliver food 
aid to women and children in many parts; the poorest parts of 
the country.
    So we're greatly appreciative for their expertise and for 
being here, and I'd just introduce Ambassador Bosworth. As many 
people know, he's one of our most distinguished veterans of 
diplomacy in the United States, served in many different posts.
    I had the pleasure and Senator Lugar did, also, way back 
in--now way back in 1986, I worked very closely with Ambassador 
Bosworth and Senator Lugar was then chair and worked very 
closely with him on the Philippines and we had many meetings 
and many visits to the Philippines as we transitioned to the 
democracy with Cory Aquino from the Marcos regime and it was 
really an astounding transition and I will say again, as I have 
said previously in public, that we were lucky, fortuitous, to 
have an ambassador of his skill on the ground helping to move 
complicated issues as effectively as he did.
    It was an enormous privilege to work with him in that 
period and I was greatly impressed then and I think we have 
been ever since. So we're delighted you're back on the job. 
This is a region you know well and you're the right person for 
this job.
    Thank you for being with us.

       STATEMENT OF AMBASSADOR STEPHEN BOSWORTH, SPECIAL 
   REPRESENTATIVE FOR NORTH KOREA POLICY, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Bosworth. Thank you, Mr. Chairman, Senator 
Lugar. It's a pleasure to be here.
    I wish I had more positive news to convey, but it is 
nonetheless, I think, very important that we be in the process 
of consulting with the Congress, particularly with this 
committee and other committees, as we try to move forward.
    I will not repeat what the two of you have said with regard 
to the situation that we face and what has happened to bring us 
to the point at which we now stand. I think you've each 
summarized that very completely and very accurately.
    I've submitted a written statement for the record. I would 
note that the international community has in our judgment, 
reached an important moment for the security of Northeast Asia.
    If North Korea does not heed the unanimous call of the 
international community and return to negotiations to achieve 
the irreversible dismantlement of their nuclear and ballistic 
missile capacity, the United States and our allies and partners 
in the region will need to take the necessary steps to assure 
our security in the face of this growing threat. In the 
interests of all concerned, we very much hope that North Korea 
will choose the path of diplomacy rather than confrontation.
    We have seriously embarked upon a four-pronged strategy: 
regional consultation, U.N. and bilateral sanctions, defensive 
measures, and, if North Korea shows seriousness of purpose, 
diplomatic engagement.
    First, we are consulting with our allies and partners in 
Asia, especially those who have been involved with us in recent 
years in the six-party talks to ensure a denuclearized North 
Korea. President Obama and Secretary Clinton have been in the 
forefront of this effort, reaching out to leaders in Japan, 
South Korea, China and Russia, to emphasize the importance of 
the international community, conveying a desire for a strong, 
unified response to Pyongyang that it will suffer consequences 
if it does not reverse course.
    Last week I participated in a mission to Japan, the 
Republic of Korea and China, led by Deputy Secretary of State 
James Steinberg, where we reiterated this point.
    I can say that our partners share our view that North 
Korea's nuclear and missile threat is a challenge to the 
international order and a hindrance to lasting stability in 
Northeast Asia that must be addressed.
    We found that our Asian partners agree that North Korea's 
provocative behavior is changing the security situation in 
Northeast Asia, and we agreed to take coordinated steps to get 
North Korea to reverse its latest provocative steps.
    China obviously has an important role to play in 
influencing the path North Korea follows. On our recent trip, 
we found that China shared a deep concern about North Korea's 
recent actions, and a strong commitment to achieve 
denuclearization.
    Our challenge now is to work with China to turn that 
commitment into effective implementation of the U.N. Security 
Council resolutions.
    Second, we are responding to North Korea's actions with new 
measures designed to raise the cost to North Korea of going 
down this dangerous path. We are working with other Security 
Council members on a range of measures to prevent North Korea 
from engaging in the proliferation of dangerous technologies 
and to dry up the funding for its nuclear- and missile-related 
entities and other companies.
    Third, we are, in conjunction with our allies, taking 
prudent steps to implement defensive measures aimed at 
enhancing our military capacity and our extended deterrence in 
the region.
    On our recent mission, we began to outline a future plan of 
responses and defensive measures that the United States and its 
allies will take should North Korea refuse to adjust course and 
should it continue to implement its announced plans for 
provocative behavior, including future missile or nuclear 
tests.
    We are committed to do what is necessary to protect the 
American people and to honor our commitments to our treaty 
allies.
    Fourth and far from least important, we remain willing to 
engage North Korea to resolve our differences through 
diplomacy. A central tenet of the Obama administration's 
foreign policy approach to date has been a willingness to 
engage in dialogue with those with whom we have had 
differences, sometimes very serious differences.
    From the beginning, this has been the approach we have 
pursued with North Korea, but so far North Korea has not 
responded in kind.
    On our recent trip, we made clear that the United States 
remains open to bilateral dialogue with North Korea in 
conjunction with a multilateral effort to achieve the 
denuclearization of the Korean Peninsula. As we have stated 
repeatedly, the United States has no hostile intent toward the 
people of North Korea, nor are we threatening to change the 
North Korean regime through force. We remain committed to the 
September 2005 Joint Statement from the six-party talks, the 
core goal of which is the verifiable denuclearization of the 
Korean Peninsula through peaceful means.
    We believe it benefits North Korea's own best interests to 
return to serious negotiations to pursue this goal. The United 
States position remains unchanged. We will not accept North 
Korea as a nuclear weapons state.
    In short, Mr. Chairman, diplomatic outreach will remain 
possible if North Korea shows an interest in abiding by its 
international obligations and improving its relations with the 
outside world. If not, the United States will do what it must 
do to provide for our own security and that of our allies.
    We will work with the international community to take 
defensive measures and to bring pressure to bear on North Korea 
to abandon its nuclear and missile programs. The choices for 
the future are North Korea's.
    Thank you again for inviting me to testify today. Before I 
respond to any questions you might have, I would like to 
mention an important humanitarian matter that is unrelated to 
the political and security issues I have just addressed, the 
conviction and sentencing this past Monday of two American 
journalists in Pyongyang.
    As Secretary Clinton has said, we appeal to North Korean 
authorities on humanitarian grounds to release these two women 
and return them to their families.
    Due to Privacy Act considerations, I am not able to answer 
questions about our detained citizens in this public hearing, 
but the Department of State and the Secretary of State 
appreciates the interest we have received from Members of 
Congress.
    I can assure you we are pursuing every possible approach in 
order to persuade the North Koreans to release them and send 
these women home.
    Thank you very much, Mr. Chairman. I look forward to the 
questions of the committee.
    [The prepared statement of Ambassador Bosworth follows:]

      Prepared Statement of Ambassador Stephen Bosworth, Special 
Representative for North Korea Policy, Department of State, Washington, 
                                   DC

    Chairman Kerry, Ranking Member Lugar, and members of the committee, 
thank you for inviting me to testify today about one of our most 
important foreign policy challenges, that of North Korea's nuclear and 
missile threats.
                               background
    North Korea's April 5 test of a Taepodong-2 missile and its May 25 
nuclear test were serious and unacceptable threats to international 
peace and security that violated existing Security Council resolutions 
and raised questions about North Korea's intentions to honor its 
commitments to achieve complete and verifiable denuclearization. After 
the April missile test, the U.N. Security Council condemned the launch 
and tightened sanctions against North Korea's missile and military 
programs. In response, North Korea then threatened other dangerous and 
provocative measures, including conducting another nuclear test, if the 
Security Council did not ``apologize'' to North Korea. On May 25, North 
Korea conducted what it announced to the world as an underground 
nuclear test. In immediately condemning this behavior, President Obama 
noted that North Korea's actions pose a ``direct and reckless 
challenge'' to the international community.
    As a result of North Korea's actions, the international community 
has reached an important moment for the security of Northeast Asia. If 
North Korea does not heed the unanimous call of the international 
community and return to negotiations to achieve the irreversible 
dismantlement of their nuclear and ballistic missile capacity, the 
United States and our allies in the region will need to take the 
necessary steps to assure our security in the face of this growing 
threat. In the interest of all concerned, we hope that North Korea will 
choose the path of diplomacy rather than confrontation.
                             u.s. responses
    To meet the challenge of North Korea's recent actions, the United 
States is acting promptly and seriously through a four-pronged 
strategy: Close regional consultation and cooperation, U.N. and 
national sanctions, appropriate defensive measures and, if North Korea 
shows serious willingness, diplomatic engagement to negotiate a path to 
denuclearization.
    First, we are consulting with our allies and partners in Asia, 
especially those who have worked in recent years through the six-party 
talks to ensure a denuclearized North Korea. President Obama and 
Secretary Clinton have been in the forefront of this effort, reaching 
out to leaders in Japan, South Korea, China, and Russia to emphasize 
the importance of the international community conveying a strong, 
unified response to Pyongyang that it will suffer consequences if it 
does not reverse course. Last week, I participated in a mission to 
Japan, the Republic of Korea, and China, led by Deputy Secretary of 
State James Steinberg, where we reiterated this point. Our partners 
share our view that North Korea's nuclear and missile threat is a 
challenge to the international order and a hindrance to lasting 
stability in Northeast Asia that must be addressed. We found that our 
Asian partners agree that North Korea's provocative behavior is 
changing the security situation in Northeast Asia. We agreed to take 
coordinated steps to get North Korea to reverse its latest provocative 
steps.
    As North Korea's neighbor, traditional ally, and primary aid and 
trade partner, China has an important role to play in influencing the 
path North Korea follows. On our recent trip, we found that China 
shared a deep concern about North Korea's recent actions, and a strong 
commitment to achieve denuclearization. Our challenge now is to work 
with China to turn that commitment into effective implementation of the 
UNSC resolutions.
    Second, we are responding to North Korea's provocative actions with 
new measures designed to raise the cost to North Korea for going down 
this dangerous path. We are working with other Security Council members 
on a range of measures to prevent North Korea from engaging in the 
proliferation of dangerous technologies and to dry up funding for its 
nuclear and missile-related entities and other companies.
    Third, we are, in conjunction with our allies, taking prudent steps 
to implement defensive measures aimed at enhancing our military 
capacity and our extended deterrence in the region. On our recent 
mission, we began to outline a future plan of responses and defensive 
measures that the United States and its allies will take should North 
Korea refuse to adjust course and should it continue its announced 
plans for provocative behavior, including future missile or nuclear 
tests. We are committed to do what is necessary to protect the American 
people and to honor our commitment to our treaty allies.
    Fourth and finally, we remain willing to engage North Korea to 
resolve our differences through diplomacy, including bilaterally, 
within the framework of the six-party process. A central tenet of the 
Obama administration's foreign policy approach to date has been a 
willingness to engage in dialogue with those with which we have had 
differences, sometimes very serious differences. From the beginning, 
this has been the approach we have pursued with North Korea. But North 
Korea greeted the open hand of the new administration with preparations 
to launch a ballistic missile. When I was appointed by the President 
and Secretary Clinton, I proposed to the North Koreans a visit to 
Pyongyang, in the spirit of engagement, rather than threat. To this 
day, I have received no response.
    On our trip, we made clear that the United States remains open to 
bilateral dialogue with North Korea in conjunction with the 
multilateral effort to achieve the denuclearization of the Korean 
Peninsula. As we have repeatedly stated, the United States has no 
hostile intent toward the people of North Korea, nor are we threatening 
to change the North Korean regime through force. We remain committed to 
the September 2005 Joint Statement from the six-party talks, the core 
goal of which is the verifiable denuclearization of the Korean 
Peninsula through peaceful means. We believe it benefits North Korea's 
own best interests to return to serious negotiations to pursue this 
goal. The United States position remains unchanged: We will not accept 
North Korea as a nuclear weapons state.
    In conclusion, diplomatic outreach will remain possible if North 
Korea shows an interest in abiding by its international obligations and 
improving its relations with the outside world. If not, the United 
States will do what it must do to provide for our security and that of 
our allies. We will work with the international community to take 
defensive measures and to bring significant pressure to bear for North 
Korea to abandon its nuclear and missile programs. The choices for the 
future are North Korea's.
    Thank you again for inviting me to testify today. Before I take 
your questions, I would like to mention an important humanitarian 
matter that is unrelated to the political and security issues I have 
just addressed--the conviction and sentencing Monday of two American 
journalists in Pyongyang. As Secretary Clinton has said, we appeal to 
North Korean authorities on humanitarian grounds to release these two 
women and return them to their families. Due to Privacy Act 
considerations, I am not able to answer questions about our detained 
citizens in this public hearing, but the Department of State 
appreciates the interest we have received from Members of Congress. I 
can assure you we are pursuing every possible approach that we can 
consider in order to persuade the North Koreans to release them and 
send these young women home.

    The Chairman. Thank you very much.
    Senator Wicker. Mr. Chairman.
    The Chairman. Senator.
    Senator Wicker. Will there be an opportunity for the 
committee to be briefed in an executive session with regard to 
the two detainees?
    The Chairman. Sure. Absolutely. If you want a briefing, I 
think the easiest thing would be if you just want to get on the 
telephone and call Secretary Steinberg, I'm confident that 
you'll get your briefing or call the Ambassador outside of this 
proceeding and he'd be happy to brief you.
    Ambassador Bosworth. Certainly.
    Senator Wicker. Thanks.
    The Chairman. I see we have a vote that has started. What I 
think we'll do, Senator, if you're willing, I'll ask--if you 
run over and vote, you'll probably get back here in time and 
that way we cannot interrupt the proceedings. Thank you.
    Mr. Ambassador, you used some appropriately strong language 
and I want to see if we can flesh this out a little bit. You 
talked about the consequences. You talked about the challenge 
to order. You talked about how this must be addressed. You 
talked about how these are provocative steps, several times 
using the word ``provocative'' steps. You said they must 
reverse their actions and our policy is a verifiable 
denuclearization.
    I think you've been very clear about how we react to this, 
what our goal is, but I want to try to understand a little 
better what the range of consequences might be.
    I mean, what is coming together--maybe you could even share 
with us some framework of these discussions in New York and 
give the committee and those listening a sense of what we're 
anticipating.
    Ambassador Bosworth. I will certainly be happy to try, Mr. 
Chairman.
    With regard to the discussions in New York, as you can 
appreciate, this has been a primary focus of our efforts. The 
Security Council is now considering a new resolution that, if 
adopted, would impose unprecedented new measures to address the 
threat posed by the DPRK's missile and nuclear proliferation 
activities and to compel that country to commit itself to 
political dialogue and denuclearization.
    These measures will give the international community some 
new tools to work with on the problem of North Korea. It would 
include, if adopted, first a total ban on arms exports and a 
major expansion of the ban on arms imports, new financial 
sanctions to limit the ability of DPRK to fund its WMD and 
ballistic missile-related activities, enhanced Inspection Act 
provisions for ships suspected of carrying proscribed goods, 
such as weapons of mass destruction or ballistic missile parts, 
designation of new entities and goods for sanctions, and within 
the U.N. Security Council itself improved mechanisms for 
monitoring the implementation of these sanctions, which I think 
is very important.
    That outlines a range of the actions that will take place 
and from which, in order to obtain relief, the North Koreans 
will have to begin to comply with their earlier commitments and 
obligations.
    The Chairman. And if they don't?
    Ambassador Bosworth. These measures will go forward. As I 
stressed, our strong preference is to engage in serious 
effective diplomacy with North Korea, and this is not something 
that the United States is doing on a unilateral basis. We are 
acting very much in concert with our two treaty allies, Japan 
and the Republic of South Korea, and in concert with our 
partners in the six-party process, namely China and Russia.
    The Chairman. What restraints are there at this point on 
the diplomatic route being pursued? Has there been a rebuffle--
a rebuff of that? Is there a lack of communication in response 
or is there some indication of this opening in the near term?
    Ambassador Bosworth. I think there has been no lack of 
communication of our concern and what we are prepared to do. 
North Korea has been listening. We have some degree of 
confidence. So far we've had no effective response from North 
Korea, other than their assertion about a month ago before 
their nuclear test that they were going to test another nuclear 
device because the U.N. Security Council had failed, as they 
had demanded, to apologize to North Korea for its earlier 
actions.
    But so far there has not been any demonstrated willingness 
to engage with the international community, either through the 
U.N. or directly through the six-party process.
    The Chairman. What if this particular round of sanctions 
elicits even further provocative response?
    Ambassador Bosworth. Well, obviously we are prepared to 
respond appropriately, and I'm really not at this time able to 
go much beyond that.
    As I said in my prepared remarks, the United States will do 
what is necessary to defend U.S. national security and the 
security of our allies in the region.
    The Chairman. Have the Chinese--I know from my 
conversations when I was there that they've been in touch, but 
has there been any visit or any kind of high-level personal 
diplomacy in this effort at this time?
    Ambassador Bosworth. The Chinese have been engaged in 
various kinds of diplomacy over the last several months with 
the North Koreans. I'm not at this point prepared to comment on 
what they might have done recently or might be doing in the 
future, only to say that I think we and the Chinese agree that 
we each have respectively a very important role to play in 
trying to defuse the situation through diplomatic interaction.
    The Chairman. Would you concur that the Chinese response 
with respect to this particular test was both quicker and more 
intense and palpable than it has been in the past?
    Ambassador Bosworth. Yes.
    The Chairman. Would you further characterize the Chinese 
concern in any way that might help us understand the options as 
we go forward?
    Ambassador Bosworth. I think it is very fair to say that we 
found on our trip to the region and in bilateral consultations 
here and elsewhere with the Chinese that they are deeply 
concerned about the prospect of North Korea continuing forward 
with its nuclear program and with its ballistic missile 
program.
    The Chairman. Have there been conversations similarly--
obviously there have been in terms of the resolution, but in 
terms of various other potential options and attitudes with 
respect to Russia?
    Ambassador Bosworth. Russia, too, has shared that deep 
concern and has been actively collaborating and working 
together with us in the U.N. Security Council.
    The Chairman. Is it fair to say that the P5 is probably 
more focused and energized and united on this than it has been 
in the past?
    Ambassador Bosworth. I'm not a veteran of U.N. activities, 
but I could say that I'm impressed by the degree of focus that 
the P5 has brought to this particular problem, including, of 
course, the other two members who are actively engaged in this, 
namely Japan and the Republic of Korea.
    The Chairman. What would it take--is there some 
precondition under--that is not public--I'm not asking you to 
make it public, but is there any precondition with respect to 
how the United States gets back to the table or if North Korea 
came back tomorrow and said you want to have six-party talks, 
fine. Would we be there? Would they start?
    Ambassador Bosworth. We have made it very clear that we are 
prepared to go back to the table any time the North Koreans 
are. We are not the ones who have announced their withdrawal 
from the six-party talks. That has been the North Koreans.
    The Chairman. And would it be bilateral and multilateral 
that we would do that?
    Ambassador Bosworth. The President and the Secretary have 
made it clear that we are prepared to engage bilaterally within 
a multilateral context and multilaterally, and I think we are 
prepared to be quite ambitious in both areas.
    The Chairman. In the past, those talks were, I believe, 
unifocused on the nuclear issue.
    Would there be a willingness this time to be more diverse 
with respect to the topics that might be discussed? Would it be 
all topics open?
    Ambassador Bosworth. I think in fact all topics would be 
open. The nuclear issue remains the core from our point of view 
and from that of our partners in the six-party process, but my 
own strong belief is that to deal in the long term with the 
problems that North Korea poses requires that we broaden our 
focus beyond the nuclear question alone.
    North Korea is a very weak state, despite its boisterous 
activities in the area of nuclear technology and missiles, and 
in order to achieve the kind of stability in Northeast Asia 
that is important for not only the countries of that region 
but, indeed, the countries of the world, including specifically 
the United States, I think we have to address how we can help 
North Korea achieve greater economic success. As long as it 
remains as weak as it is, there is a risk that it will generate 
instability throughout the region.
    We're also prepared, as we have indicated in the past, to 
talk with the North Koreans about the normalization of our own 
relationship with them and we're prepared to talk with them, 
together, of course, with our partners in the region, about our 
new arrangements that might be put in place to replace the 
Armistice of 1953.
    All of these things are effectively interlinked, but again 
the core of our concern and the sine qua non of making progress 
is serious engagement by the North Koreans on the issue of 
denuclearization.
    The Chairman. And in my opening comments, I observed the 
sort of multiplicity and motives with respect to Kim Jong-il's 
choices here. I wonder if you might comment on your perceptions 
as a veteran of this.
    Ambassador Bosworth. I have, at my pain, learned not to 
project my views of why North Korea does things very actively. 
I think sometimes it's very difficult for people on the 
outside, including myself, to understand their motivations.
    I would only say, Mr. Chairman, that I think the various 
motivations that you put forth all make sense to me.
    The Chairman. Well, I appreciate that. Senator Wicker, did 
you already vote?
    Senator Wicker. I haven't. I thought I might try to squeeze 
a question or two in, if you'll walk slowly, Mr. Chairman.
    The Chairman. Let's find out how much time there is on the 
vote----
    Senator Wicker. Well, I understand the clock is----
    The Chairman [continuing]. And we'll see how slowly I'll 
walk. We'll try to figure that out. I've certainly gone over my 
time. So I'm happy to--we only have 2 minutes on the vote. I'm 
happy to--as you know, there's always a little----
    Senator Wicker. Sure. I will risk it, if you don't mind, 
Mr. Chairman.
    The Chairman. I'm delighted. So if you would turn it over 
to Senator Lugar when he gets here and I'll go vote and come 
back and we'll just try to keep going.
    Senator Wicker. Thank you, Senator.
    The Chairman. And I'll tell him you're on your way.
    Senator Wicker. Thank you. Please.
    The Chairman. Are you going to vote against him? No. 
[Laughter.]
    Senator Wicker. I'm going to vote ``yes,'' as a matter of 
fact.
    The Chairman. We're saved by Senator Wicker.
    Senator Lugar. Let me mention that there are other 
countries that are involved that we haven't touched upon, at 
least I have not heard them in the course of our talks thus 
far, such as Germany and Italy, others who are involved in the 
commercial relations, even among our NATO alliance.
    As I recall, and this may be an oversimplification of 
affairs, but at another juncture, with difficulty in 
negotiations, maybe before progress in the six-party talks, 
there were measures taken through the banking systems of 
various countries in the world in which apparently North Korea 
assets, deposits, perhaps of the leadership or others, were 
obstructed from being of value to them. That seemed to have a 
greater effect at that point than many of the threats or 
pressures that were coming through diplomacy, whether it be 
through the U.N. or through other nations.
    Can you give us some insight as you take a look at that 
particular method with regard to the current North Korean 
financial situation or that of its leadership as to what kind 
of pressure is involved in these determinations in the banking 
system of the country?
    Ambassador Bosworth. That is a subject that we continue to 
examine. It is a subject which is covered in part at least in 
the U.N. Security Council resolution which is now pending 
adoption in New York, and it is one about which we are 
exchanging views with our partners and allies in the region.
    Beyond that, I'm really not able to go very far at this 
point, Senator. Obviously, we're looking at all mechanisms 
which would enable us to help to persuade North Korea to come 
back to a negotiating framework.
    Senator Lugar. Not belaboring the issue, can you describe 
from your own experience or your own history of this situation 
really how those financial instruments work?
    In other words, as the public takes a look at this hearing 
and tries to understand something of that complex nature, why 
was this effective, if you believe it was, in the past with 
regard to North Korea?
    Ambassador Bosworth. I can't really go into much detail on 
this, not because I'm reluctant to comment but because I was 
not involved in these efforts at that time.
    But I think we are looking at the possibility of additional 
measures which will be very carefully targeted and which would, 
as you suggest, address the issues posed by specific North 
Korean deposits and holdings outside of the country.
    Now obviously this becomes very complicated because North 
Korea would have relationships with banks and financial 
institutions of other countries, and we have to be sure that we 
are coordinating this with those governments, but, particularly 
under the pending U.N. Security Council resolution, this is an 
area of activity that we are going to look at very seriously.
    Senator Lugar. Is it your judgment that if the Security 
Council resolution that currently is being discussed were, in 
fact, to be favorably voted upon, that other countries, such as 
the ones I've mentioned or other European countries, and others 
who have these dealings, would feel bound to observe that?
    In other words, could they find exceptions that would allow 
their commercial interests, their banking interests to proceed?
    Ambassador Bosworth. On the whole, my view is that they 
would be inclined to cooperate very strongly with the U.N. 
Security Council resolution, and as I mentioned, the new 
resolution would, if adopted, create new enforcement 
opportunities within the Security Council itself.
    Senator Lugar. In recent days, it has appeared that after 
threats to South Korea, that commercial establishments, 6 miles 
we're told from the DMZ, would be shut down, with cooperation 
on both sides. The North Koreans have relented in that 
pressure.
    Is that your observation or what information can you give 
us in terms of the South Korean/North Korean commercial 
situation?
    Ambassador Bosworth. I'm not sure I understand exactly what 
you're referring to, Senator. If it's with regard to the 
industrial zone at Kaesong, then there have been a number of 
conversations between the North and the South underway for some 
time. We follow those with interest and I think we would be 
happy to get back to you as to where we think those are going.
    Senator Lugar. I mentioned that because it appeared that at 
a moment in which the North Koreans certainly have been very 
aggressive with regard to the South Koreans, even threatening 
military action, there so appeared to be some talks or 
negotiation proceeding which was interesting in view of all the 
other provocative activities.
    Ambassador Bosworth. My impression is that is correct, and 
I, too, find it of some interest, and I think it hopefully will 
demonstrate a willingness on the part of North Korea to look at 
its own self-interests and make decisions based on that.
    Senator Lugar. What is your impression, still following the 
economic sanction activity, about the economy of the country? 
Normal reports are that obviously many people throughout the 
country are sorely deprived and many may be near starvation or 
sorely in malnutrition much of the time, and this has led the 
international community to be cautious about economic 
sanctions, particularly when they came with humanitarian 
situations, such as food, basically.
    But in the event that economic sanctions were to become 
complete, what is the likely course of activity in the country 
at that point? Is there an economy that is sufficient to at 
least prevent revolt or others, before they die, at least 
having something to say about it?
    Ambassador Bosworth. As you suggest, Senator, the North 
Korean economy is in a desperate condition. It has been 
steadily going downhill since probably the early 1990s and its 
industrial output, for example, is now only a fraction of what 
it might have been, what it was in the late 1980s.
    Its agricultural output is also very, very poor and has 
been inadequate to meet the needs of its own citizenry, and 
North Korea has depended heavily on international contributions 
of food stuffs to feed its own people.
    Now, as I know you are aware, North Korea about 2 months 
ago asked our humanitarian agencies and organizations who were 
there to deliver the food that the United States had agreed to 
make available, were asked to leave by the North Korean 
authorities. So that quantity of food is no longer being 
provided.
    We remain concerned on humanitarian grounds about the 
condition of the North Korean population, which is not good. 
Now, the country is covered by such secrecy that one doesn't 
know exactly what the condition of all the population might be, 
but it is clear that diet is inadequate in terms of caloric 
intake, and if they have a harvest that, for example, is not as 
good as it should be or as they hope it would be, then the 
conditions deteriorate even further.
    So we and our partners and other countries in the U.N. 
Security Council are very conscious of the need not to further 
punish the people of North Korea. That is very much one of the 
things that guides us as we try to shape a policy that will 
both respond to what the North Korean Government is doing and 
give us some possibility for improvement.
    Senator Lugar. Thank you. I would note the presence of 
Senator DeMint.
    In the absence of the Chair, I recognize the Senator for 
his round of questions.
    Senator DeMint. Thank you, Senator Lugar.
    Mr. Bosworth, thank you for being here.
    I would like to ask some questions specifically about the 
designation as a state sponsor of terrorism for North Korea and 
what that designation might do to leverage some American goals.
    As you know, the new administration has now hesitated to 
point out mistakes of the last administration, yet when asked 
about reinstating the designation of a terrorist nation, the 
administration has appealed to the decision that Bush made last 
year about this time.
    As you know, the Bush administration, in an attempt to 
entice North Korea back to the negotiating table, took North 
Korea took off the list of state sponsors of terrorism, and I 
think, I'm sure as you know, that designation allowed us to 
freeze assets and pressure them in other ways.
    Since then, it's been very obvious the North Koreans have 
not honored that in any way and in fact they have expedited, 
expanded their development of nuclear weapons. They've tested 
large nuclear weapons, tested more missiles and have promised 
to test a missile that could reach our shores.
    Last week, about eight Senators sent a letter to Secretary 
Clinton asking her to put North Korea back on the state 
sponsors of terrorism and we've yet to receive an answer. One 
that we heard in the press was that there is no evidence that 
there has been new terrorist activities since they were taken 
off the list, but the point is, is they never cease their 
terrorist activities.
    The most recent Congressional Research Service pointed out 
that North Korea has and continues to collaborate with Iran, 
Syria, as far as weapons distribution and supporting terrorism. 
Nothing has changed about North Korea, except that we've taken 
the pressure off of them.
    It does appear that one of our best sources of leverage at 
this point is to put that pressure back on them and to do it 
quickly because North Korea has not responded to our talk, 
about goodwill, in any way, except to expedite their whole 
mission of being able to threaten most of the world.
    So what is the hesitation to put North Korea back on that 
terrorist list?
    Ambassador Bosworth. Thank you very much, Senator.
    As Secretary Clinton has said, we take very seriously the 
calls by Members of Congress to redesignate North Korea as a 
state sponsor of terrorism. As a legal matter, in order to be 
designated as a state sponsor of terrorism, the Secretary of 
State is only authorized to make a designation based on a 
determination that the government of a given country has 
repeatedly provided support for acts of international 
terrorism.
    Now I can say unequivocally we will follow the provisions 
of that law completely.
    I would note that a redesignation of North Korea as a state 
sponsor of terrorism would not result in any new material 
penalty to the North Koreans, since many of the activities that 
we're talking about are covered under other sanctions applied 
to North Korea under other provisions of U.S. law, including 
proliferation of weapons of mass destruction and the means for 
delivering them.
    Senator DeMint. It does send a message to them and the 
world and I think highlights what we know has been going on; 
continues to go on. There appears to be little doubt, as I look 
to the Congressional Research Service report, that whether it's 
supporting activities of the Iranian Revolutionary Guard or 
material support to the Taliban, Hezbollah, Hamas, the Shia 
militants in Iraq, that this is a serious provocation, and it 
seems that we're holding our punches by not calling it what it 
is and my encouragement would just be for us to take this 
seriously because when we lighten up on North Korea by taking 
them off the list, we did lighten up on them.
    We in a sense rewarded bad behavior, hoping we'd create 
good behavior, and we got worse behavior than we had before. It 
makes absolutely no sense to continue with this and I think it 
basically amplifies a growing sense of Americans are a paper 
tiger, full of talk, and no action.
    It appears that this is maybe one of the few things we 
could do at this point that could actually put some pressure on 
them and if you say we're already doing all of the things, such 
as freezing their assets and the other economic sanctions that 
go along with this, the message it sends to the world is that 
we're getting serious, at least in my mind.
    Ambassador Bosworth. I appreciate your thoughts, and we 
will reflect on that and get back to you.
    I think, as I said earlier, the question is based on a 
legal determination as to whether a given country has 
repeatedly provided support for acts of international 
terrorism.
    Now, we don't like in any way what many of the things that 
North Korea has done, and we will continue to object to and 
sanction those as appropriate under United States law.
    Senator DeMint. Well, I appreciate you bringing up the law 
because that threshold of law was met by North Korea in both 
the Bush administration and the Obama administration. It meant 
that nothing ever changed, that this was only changed as an 
enticement and not because they ceased any of the activities.
    The legal threshold for being on the state sponsor of 
terrorism was met. They've been on that list since 1988 and 
there has never been any reason to take them off from a legal 
perspective. It was a diplomatic move to take them off. So I 
hope we don't use that as an excuse not to move on this but I 
will yield to your research on the issue.
    I'm just looking, as I'm sure you are, as a way to appear 
more serious than rhetoric, that what they're doing is a danger 
to the whole world right now.
    Thank you again for being here with us. I yield back.
    Senator Lugar. In the absence of the Chair, I recognized 
Senator DeMint, but I'll yield the Chair now to Senator 
Feingold and recognize him for his questions.
    Senator Feingold. Well, I thank you, Senator Lugar.
    Let me just do a round here myself. I'm very pleased that 
this hearing is being held. It's been quite some time since the 
committee has explored this issue and one that I think we can 
all agree remains one of the greatest challenges to our 
national security.
    Although we did appear to make some initial headway at the 
end of the last administration, it's clear from North Korea's 
recent provocations that we have not yet found a lasting 
resolution.
    As the situation on the Korean Peninsula continues to 
deteriorate, the United States needs to take a central role in 
determining how best to engage Pyongyang and also send a clear 
message that North Korea cannot use illicit weapons programs to 
demand concessions from the international community, nor can it 
arrest American citizens on apparently trumped-up charges and 
then find them guilty in a closed-door trial. These actions 
will only invite further isolation, greater hardship for the 
North Korean people, and, of course, continued rejection by the 
international community.
    I'm pleased that President Obama is seeking to engage 
meaningfully on this issue, that the administration is working 
with many of our friends and allies in the region and at the 
United Nations to craft a strong multilateral response. The 
stakes are far too high for an ad hoc, uncoordinated policy, 
and we must make clear that violations of international law and 
basic human rights actually have serious consequences.
    Ambassador Bosworth, I believe North Korea continues to be, 
of course, a critical threat to our national security and to 
the security of our friends and allies in the region. 
Accordingly, we have to prioritize this issue as long as North 
Korea continues these provocative and dangerous actions.
    Noting that you were recently quoted as saying, ``I don't 
think it's useful to try to persuade [the North Koreans] to do 
what they don't want to do'' and that ``in the end they will 
see that having dialogue is in their interest,'' how do we 
drive negotiations forward in a way that is genuinely appealing 
to Pyongyang without simply waiting for the North Koreans to 
rejoin the talks while they may well be continuing to produce 
nuclear weapons?
    Ambassador Bosworth. First of all, our best hope of making 
progress on these issues is as you suggest, to work jointly 
with the major countries of the region and our principal allies 
in the region, and this is not a unilateral American effort. 
Through the frequent consultations with the other parties to 
the six-party talks and through the U.N. Security Council, we 
have made multilateral action the centerpiece of what we are 
trying to do with the North Koreans.
    As for how one makes progress over time, I would counsel 
only patience and perseverance, and I think we have to remain 
steady. We have to continue to indicate that some of the things 
that North Korea is doing are dangerous and unacceptable to us, 
and we have to be prepared to respond, as we are now 
responding, through the U.N. Security Council resolution, 
through bilateral sanctions, and through consultations with our 
partners in the region.
    We must also continue to indicate that for us, engagement 
and dialogue and diplomacy remain the only real way to solve 
this problem. Now that does not mean that you acquiesce in 
everything that North Korea wants--far from it--but if we 
remain patient and persevere in our policy, the chances of 
eventual progress are good.
    Senator Feingold. There have been numerous press reports 
that Kim Jong-il has selected his youngest son to be his 
successor, and some analysts speculate that the recent nuclear 
and missile tests were part of an effort to ensure a smooth 
transition of power to his preferred heir.
    Do you think our ability to move forward with the 
negotiations is limited while Kim Jong-il remains in power and, 
more specifically, what impact do you think an impending 
transition of power would have on North Korea's nuclear 
development program and willingness to participate in 
negotiations--and also in this regard, if Kim Jong-il's 
youngest son has, in fact, been selected as the heir, give me a 
little sense of what you think it might mean for our policy 
toward North Korea.
    Ambassador Bosworth. First, I would note that there's been, 
as far as we are aware, no formal designation of anyone as Kim 
Jong-il's heir. So to some extent, this is a reflection of 
speculation in the press which may or may not prove to be 
founded.
    In the meantime, what I would say in response to your very 
good questions is to quote someone who was quoted earlier by 
the chairman and that is Secretary Bill Perry when he was 
Secretary of Defense, who advised that ``we should deal with 
North Korea as it is, not as we would wish it to be.''
    So regardless of who is in power in North Korea, who is the 
President, who is the leader, I think we have to deal with 
North Korea on the basis of what it does and not what we think 
would be a likely alternative.
    Senator Feingold. I understand that up at the United 
Nations, a draft resolution has been agreed to that would 
expand and toughen multilateral sanctions toward North Korea. I 
recognize you're probably able to share very little of that 
because they are ongoing discussions, but I'm interested to 
hear what specific mechanisms, existing or otherwise, will be 
used to enforce both new and existing sanctions.
    I'm raising this concern because U.N. Security Council 
Resolution 1718, which passed in 2006, appeared to be a strong 
multilateral tool in that it banned atomic explosions and long-
range missile launches by North Korea and imposed limited 
financial sanctions, as well as a partial trade and arms 
embargo on Pyongyang. However, as you well know, the measures 
have been widely ignored and unenforced, and thereby basically 
rendered the multilateral effort rather toothless.
    Ambassador, what steps are being taken to ensure that this 
new resolution, if it does pass, does not have essentially the 
same fate?
    Ambassador Bosworth. One of the things that would be 
provided by this new resolution, assuming it is adopted, is 
that the DPRK Sanctions Committee will have an enhanced mandate 
to focus on compliance, investigations and outreach, and also a 
panel of experts would be established, as under other sanction 
regimes, to support the committee's effort to monitor and 
improve implementation, and I think it is obvious that for the 
United States Government, a position of urging all U.N. members 
to comply fully with this new resolution will be a very 
important part of our response to what North Korea is doing.
    Sanctions resolutions are useful and important, largely to 
the extent to which they are implemented, and I very much 
believe that we will push to ensure that other countries 
implement these resolutions as fully as we do.
    Senator Feingold. Thank you, Ambassador. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Feingold.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Thank you, Mr. Ambassador, for being here. You certainly 
have your work cut out for you.
    In your testimony, you mentioned your findings on your 
recent trip, include that China shares a deep concern about 
North Korea's recent actions and a strong commitment to achieve 
denuclearization.
    There's a widely held view, Mr. Ambassador, that if China 
really had the resolve to squeeze their North Korean neighbor 
on the issue of denuclearization, they could accomplish this in 
a way that really no other country on the globe can do.
    Did you find their concern to be deeper and their 
commitment to be stronger than before the missile test and the 
nuclear test, and would you speak to this widely held view that 
I mentioned, that China really could accomplish this if they 
were of a mind to?
    Ambassador Bosworth. First, it's very fair to say that we 
found China very concerned, acutely concerned about what North 
Korea has done and is doing, both in the nuclear field and in 
the area of missile technology.
    They recognize, perhaps more than anyone else, that these 
moves by North Korea can have a very deleterious effect on 
security arrangements throughout Northeast Asia and 
specifically on the Korean Peninsula, and they realize that 
this is not in their interests.
    Now I can't speak for the Government of China obviously, 
only to say that our impression when we came away from these 
very intensive consultations in Beijing was that China sees the 
current situation and the evolution of that situation in very 
much the same way that we do.
    With regard to what China is or is not prepared to do and 
what its potential for action might be, I'm very reluctant to 
comment in a public forum about that. I think that's largely up 
to China, and I would say we'll have to judge China on the 
basis of what it does over the next several months.
    But China is also a country which has grave concerns about 
instability in the region, and I think we'll continue to work 
with them very closely and to try to ensure that we continue, 
as we have to date, to operate very much on a common front and, 
indeed, with our other partners in the region.
    Senator Wicker. Apart from multilateral approaches to 
China, can you tell us specifically--are you able to tell us 
specifically at this open hearing what bilateral actions China 
has already taken before these tests to resolve this situation 
with regard to the nuclear weapons, nuclearization?
    Ambassador Bosworth. I really am reluctant to get into that 
because it has to do with what China is doing as a sovereign 
country in its own interests, but I would say that we are 
satisfied that China is moving in all of its connections within 
the region, specifically in its connections with North Korea, 
to give focus and reality to this effort. This is a subject on 
which there are bilateral communications, but beyond saying 
that in a general sense, I really don't want to become too 
specific.
    Senator Wicker. OK. Do you reject the assertion by some 
that in some respects, North Korea serves as a counterbalance 
for China and that it's not all negative with regard to China?
    Ambassador Bosworth. Again, I can only comment on the basis 
of what we learn when we talk to the Chinese, and in that 
sense, I think I am convinced that they are acutely concerned 
about what North Korea is doing and see no advantage to them or 
anyone else from what North Korea is doing.
    Senator Wicker. It's clear to me that you're quite 
satisfied at this point with the response of the Chinese 
Government in response to these two tests.
    Ambassador Bosworth. We are very committed to continuing 
our close consultation with the Chinese as we move forward, and 
I think we each are of the belief that that kind of 
consultation and coordinated action is essential if we're going 
to bring about the kind of solution to this problem that we 
think is desirable and needed.
    Senator Wicker. We're--the third option we have as a United 
States is enhancing our military capacity.
    What are our options for doing that? Can you discuss those 
publicly?
    Ambassador Bosworth. Well, we already have a very strong 
defense posture in the Western Pacific.
    Senator Wicker. How will we enhance that?
    Ambassador Bosworth. Well, again, I don't mean to be 
evasive, but I'm not going to get into the business of my 
colleagues in the Defense Department, and, of course, the 
President's business ultimately to decide how we might do that, 
if it's so desired.
    Senator Wicker. Mr. Ambassador, are we taking any small 
steps or have we taken any small steps over time that have 
improved the United States-North Korean relationship in any 
respect?
    And I ask you about employment across the border. In my 
home State of Mississippi, we've entertained medical doctors 
from North Korea and I don't know if that accomplishes much, 
except for an exchange of ideas.
    It seems that those are two small steps that we're taking, 
and is there any reason for us to be encouraged at all by some 
other things that are going on?
    Ambassador Bosworth. I think, Senator, that one of our 
strengths as a nation is our willingness to engage in 
humanitarian activities, aside from political considerations.
    So I would applaud the efforts of any American entity to 
try to bring about some improvement in the very desperate 
condition of the North Korean people. That's the basis on which 
the U.S. Government has provided food aid over the last several 
years. It's the basis on which a number of private 
nongovernmental organizations have operated within North Korea, 
and we have never, and I don't believe we'll ever in the 
future, tried to use these activities as leverage for political 
ends.
    We deal with North Korea on an official government-to-
government basis, but I personally, and I think I can speak for 
everyone in the administration and, indeed, in the United 
States bureaucracy. This willingness to engage in humanitarian 
activities is one of the hallmarks of our country and one that 
gives me a great pride.
    Senator Wicker. If I might, Mr. Chairman, we would no doubt 
engage in humanitarian efforts for the sheer good that it does.
    Do you have any information that you could share with the 
committee about who gets the credit among the North Korean 
people?
    Ambassador Bosworth. I have no specific information. It's 
mostly anecdotal. I have reason to believe through my 
conversations with some of the United States organizations that 
have been doing this over the years that, by and large, the 
North Korean people understand from where this assistance is 
coming and in some cases I think in recent years the food that 
we've provided even comes with an American flag on the bag 
which is still there when it's distributed to the people of 
North Korea.
    So I think that the North Korean people probably understand 
better than we may expect the humanitarian impulses of the 
United States and its people.
    The Chairman. Thank you, Senator.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you very much for being here.
    I just want to underscore the point that Senator Wicker 
made at the beginning of this hearing about the two 
journalists, and I understand the limitations of this hearing.
    I think most of us believe this is just another example of 
the gross human rights violations by North Korea in taking 
human pawns to use in some way for negotiations with the United 
States in regards to their other issues. This is something that 
we just need to continue to raise, to point out how outrageous 
that type of action is.
    Now, North Korea's human rights record is deplorable 
generally. The State Department's 2008 Human Rights Report 
documents a laundry list of the regime's oppressive practices. 
I have the opportunity to chair the Helsinki Commission and we 
deal on a regular basis with human rights. One of our points is 
how we can use those reports in a more effective way to try to 
help the people of these repressive regimes.
    I just want you to perhaps share with us what we can do to 
try to advance human rights in North Korea. I know we have a 
long list, but I hope part of it is to try to improve the 
government's functioning as it relates to basic rights of the 
people of North Korea.
    Ambassador Bosworth. I can assure you, Senator, that human 
rights concerns remain very much on the agenda of our 
prospective relationship with North Korea, and in the case of 
the detained journalists, we are exploring all possible ways to 
bring about their release on humanitarian grounds.
    Beyond that, as I indicated in my prepared remarks, I 
really am not able to comment further, given Privacy Act 
considerations and other things.
    Senator Cardin. My question was more general than just the 
two journalists. I certainly want you to do everything you can 
to secure their releases and I think most of us have expressed 
our views on it.
    But it goes beyond just these two journalists. I mean, the 
human rights record of North Korea is just outrageous; one of 
the worst countries in the world.
    Ambassador Bosworth. Without question.
    Senator Cardin. Yes.
    Ambassador Bosworth. And we are moving under legislation 
that was, I believe, passed last year, to designate a new 
special envoy for North Korean Human Rights and I would expect 
and hope that that could be done in the next several weeks.
    Senator Cardin. Let me raise one more issue in my time and 
that is, obviously, the risk of North Korea becoming more 
sophisticated in nuclear weapons and testing to try to deliver 
that type of a nuclear weapon. This is a major concern.
    But it's also the transfer of that technology or weapons to 
terrorist organizations or to nonstate actors that have to be a 
major concern.
    Now, I heard you, in response to Senator Kerry's question, 
talk about potential sanctions that would block the export of 
weapons. I just really want to get a sense from you as to how 
effective we can be to make sure that that type of technology 
is not exported to terrorist organizations or nonstate actors.
    Ambassador Bosworth. We will do everything possible to 
monitor that situation and if we believe that there is evidence 
or that there is an indication of proliferating activities, we 
will respond in a very strong fashion.
    I would note that this is a very difficult thing to do, 
obviously, and it is one of the major reasons, not the only 
reason, but one of the reasons why, for the Obama 
administration, the ultimate goal remains verifiable 
denuclearization because if the Korean Peninsula is 
denuclearized, then there is really no risk of proliferation.
    But we're not prepared and never will be prepared to settle 
for a policy which only concentrates on proliferation and 
ignores the root cause which is the nuclearization of North 
Korea.
    Senator Cardin. Well, I certainly agree with that. If they 
have the capacity, the proliferation issue is going to be 
there, and we know that. The best way to deal with that is the 
stated policy of the peninsula being without nuclear weapons.
    So I fully agree with you. I just wanted to underscore the 
point. It's not only the direct threat of North Korea having 
nuclear weapons capacity but what it could be as a supplier to 
other regions and other organizations, including terrorist 
groups.
    We know that there's already been some smoking guns here, 
and we just need to understand the risk factors and need to 
take the appropriate actions. I think proceeding through the 
United Nations Security Council makes a great deal of sense, 
and working with our partners and trying to get more effective 
help from the major countries in the region, including China, 
is our best chance to secure an effective policy to accomplish 
our goals of removing this threat.
    Ambassador Bosworth. I agree with that.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Cardin.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    And, Mr. Ambassador, we're grateful for your service and 
grateful for your testimony today.
    I wanted to raise primarily two issues, maybe three, but 
the first one centers on China. I was noting in a pertinent 
part of your statement, that you said China has an important 
role to play in influencing the path that North Korea follows. 
You spoke of your trip and that China shared a ``deep concern 
about North Korea's recent actions.'' Our challenge now is to 
work with China to turn this commitment into effective 
implementation of the various Security Council resolutions.
    I was going to ask you about Resolution 1718 passed in 
October 2006 and the enforcement thereof.
    Since Resolution 1718 passed, as you know--and we can 
easily track this--China's aid, trade, and investment in North 
Korea has expanded.
    How can the Obama administration, and you're playing a 
central role in this, encourage China to enforce U.N. sanctions 
and take a more assertive posture toward North Korea? Any 
thoughts on that?
    Ambassador Bosworth. What happened with regard to 1718, and 
this is no excuse, but what happened was that soon after that 
was passed, we found ourselves back in multilateral 
negotiations with the DPRK.
    Now, I think as we go forward, in fact as has already been 
the case over the last few months, the subject of 
implementation of U.N. Security Council resolutions, both the 
existing one, 1718, and now, of course, prospectively the new 
one, it's very much a subject of active consideration in our 
relationship, not only with the Chinese but with all other 
countries of the region.
    So I think you can expect that as we move forward, we're 
going to continue to be very concerned about implementation, 
and I would expect that other countries will be, as well.
    Senator Casey. Anything that you would recommend? I know 
you're not in this business of recommending what Congress 
should do, but any suggestions about how Congress can be 
helpful on that narrow question of the enforcement of that 
resolution?
    Ambassador Bosworth. Well, I think I'm never hesitant to 
recommend what Congress should do, but I do think----
    Senator Casey. That's OK for today.
    Ambassador Bosworth. I do think that Congress has a role in 
this and that as the Congress expresses its views, those can 
hopefully reinforce the positions that we're taking in 
bilateral government-to-government relationships with our 
partners.
    Senator Casey. Well, let's move on. I wanted to move to the 
question of the six-party talks.
    What's your sense of the likelihood of the six-party talks 
being reengaged in the near term (a) and then (b) if you'd 
comment on--I know in the statement, you talked about this--
that it was helpful for us to have a four-pronged strategy. The 
fourth prong being if North Korea shows a serious willingness 
for diplomatic engagement.
    How do you see that playing out or how would you like it to 
play out in terms of the role that any further or near-term 
six-party talks reengagement would take on as well as any kind 
of bilateral strategy?
    Ambassador Bosworth. Optimally, I would like to see the 
North Koreans signal strongly that they're prepared to return 
to----
    Senator Casey. Right.
    Ambassador Bosworth [continuing]. A negotiating mode. The 
other members of the six-party process, including very 
importantly the United States, are all prepared to go back to 
the six-party process.
    I think it has proven to be an effective mechanism. Now, 
it's not perfect and anyone who has been engaged in 
multilateral diplomatic efforts will tell you that as you 
expand beyond two, the process becomes ever more complicated by 
a quantum factor.
    But, nonetheless, the six-party process provides a platform 
within which each of us can examine what the others are doing, 
where we can resolve issues, where we can coordinate efforts 
with regard to a common purpose and with regard to North Korea, 
and so I am hopeful that at some point, preferably not in the 
too-distant future, North Korea will come back to the table, 
and I think I can say that all other members of the six-party 
process share the desire of the United States to see that 
happen as soon as possible.
    Senator Casey. And getting back to a question Senator 
Cardin raised about the selling or exporting of technology that 
relates to nuclear weapons, do you have any sense--I know we 
all have a concern, that's obvious--that the North Koreans at 
this moment are engaged in any kind of a strategy to sell that 
technology?
    Do you think it's mostly about what they're doing 
internally?
    Ambassador Bosworth. Well, I think that there's no question 
that the North Koreans are aware of our attitude on this 
subject, and beyond saying that I believe that they know there 
would be consequences for any such activity, I really don't 
want to go much further in my statements.
    Senator Casey. Fair enough. Finally, I know I have a minute 
left, I'll be real brief on this, the North Koreans, recently 
announced that they've suspended the 1953 armistice that ended 
the Korean war.
    Is there any practical effect to that? What--how do you see 
that?
    Ambassador Bosworth. Well, first of all, it's not--it is 
not welcomed news, obviously, but the practical effects of it 
at this point are not vast.
    We would like to see them come back into the armistice 
framework. There are some mechanisms provided by the armistice 
that will be very helpful, and I have no reason to at this 
point believe the North Koreans are going to reject those 
mechanisms.
    As I indicated earlier in response to a question, looking 
out beyond where we are now and in a broader focus, I think the 
Obama administration believes that it is time to begin talking 
seriously with the affected countries about a permanent 
replacement for the armistice of 1953. That was a long time ago 
and it is in some ways concerning and lamentable that a state 
of war still technically and formally exists on the Korean 
Peninsula.
    Senator Casey. Thank you very much.
    The Chairman. Thank you, Senator Casey.
    Before Senator Shaheen, I just want to say, committee 
process, we have Prime Minister Tsevangirai, the Prime Minister 
of Zimbabwe, coming at 4:30. So we're going to try to compress 
this after your questioning.
    Ambassador, we're going to switch the panels. I want to 
particularly have time to hear from the second panel of 
experts, and if I could ask you, Ambassador, to pass by the 
dais on your way out so we can just grab you for a moment, we'd 
appreciate it.
    And finally, Senator Boxer asked me to mention that she 
shares the concern about the imprisonment of Laura Ling and 
Euna Lee and she will be circulating a letter among Senators 
that she invites them to join in signing with respect to the 
administration's approach and we look forward to that.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Ambassador Bosworth, thank you for being here and for your 
service.
    To be parochial, I would point out that you're a graduate 
of Dartmouth and you do us proud in New Hampshire.
    Ambassador Bosworth. Thank you.
    The Chairman. You can't steal him. He still lives with us. 
[Laughter.]
    Senator Shaheen. We're working on that.
    According to recently released reports, North Korean 
exports jumped 23 percent last year compared to the previous 
year and imports jumped 33 percent.
    To follow up a little bit on what Senator Casey was 
referencing with respect to China, what do these statistics say 
about our ability to isolate North Korea economically and what 
effect have sanctions really had on the country?
    Ambassador Bosworth. First of all, Senator, it's important 
to note that those are percentage increases off very low base 
levels. I haven't personally analyzed the data sufficiently to 
be able to tell you exactly what it means.
    I think one thing that it probably reflects, particularly 
on the import side, is a very high price for oil over most of 
2008, and I think that probably has inflated the figures.
    I would say that in all likelihood, as we go forward, and 
particularly as the new U.N. Security Council resolution comes 
into force, as we continue our efforts to coordinate with China 
in particular but also with other countries in the region, that 
I would be surprised to see those rates of increase continue in 
2009 and beyond.
    But it is true, nonetheless, that North Korea has an 
economy which in many ways is only barely above the level of 
subsistence. So that makes it difficult to change its behavior 
through the use of economic sanctions, although not impossible, 
and certainly carefully targeted sanctions are a very important 
part of, if you will, our toolkit in dealing with North Korea.
    But we should not be under any illusions that these in and 
of themselves are going to bring about a sharp reversal of the 
current situation.
    Senator Shaheen. Well, you talked about the effort to get 
North Korea to come back to the table. What's it going to take 
to do that, and is there any reason to believe that there is an 
interest or a willingness on their part to come back to the 
table, to want to engage again in any kind of discussions or 
negotiations?
    Ambassador Bosworth. I think that at the moment there is no 
evidence that they are prepared to do that now. I am, however, 
as I indicated earlier, of the belief that they eventually will 
come back to the table.
    Then the challenge is in part for us to ensure that we 
engage with them in a realistic fashion and that we begin 
considering negotiating measures which will in fact be much 
more irreversible than some of the measures that have been 
negotiated with them in the past.
    Now I don't underestimate the difficulty of doing that. It 
is going to be very difficult, indeed, but we need a greater 
sense of irreversibility and a greater sense that the things 
that they agree to now, they're not going to fall away from in 
the future.
    As some of us have indicated, we have no desire or 
willingness to pay twice for things that North Korea is willing 
to do.
    Senator Shaheen. So how do we enforce that kind of 
irreversibility?
    Ambassador Bosworth. Enforcement is largely through the 
negotiating process itself and what we are willing to provide 
in return, and we'll have to see. There is no magic process by 
which you do this. It's all very hard work and I think in this 
case, it all requires very close coordination with the other 
affected countries of the region.
    The United States really can't do this on its own. We can 
be a leader in the process but we very much need the active 
collaboration of the other countries involved, our allies South 
Korea and Japan and our partners China and Russia.
    Senator Shaheen. Is there any reason to believe that, if 
the leadership mantle passes to Kim Jong-il's son, that it will 
result in any kind of a change in the leadership there with 
respect to decision-making?
    Ambassador Bosworth. I have no reason to speculate one way 
or the other on that. As I said earlier, quoting former 
Secretary of Defense William Perry, I think we have to deal 
with North Korea ``as it is, not as it might be at some point 
in the future.''
    Senator Shaheen. And is there any information to suggest 
that there might be disagreements within the North Korean 
Government regarding their nuclear policy?
    Ambassador Bosworth. No.
    Senator Shaheen. Thank you.
    The Chairman. Thank you, Senator Shaheen.
    Senator Corker, welcome. I know he's already indicated to 
me he's not going to ask questions.
    So we thank you, Ambassador Bosworth, very, very much, wish 
you well in the days ahead. We want to stay in close touch and 
I know we will. I look forward to chatting with you for a 
moment.
    Ambassador Bosworth. Thank you very much, Mr. Chairman.
    The Chairman. If we could ask the second panel to quickly 
come up and take their seats, so we can have a seamless 
transition, that'd be terrific.
    I would ask each of the following panelists if they would 
try to summarize the comments in 5 minutes or less. Your full 
statements will be placed into the record as if read in full 
and this way the committee will have more chance to be able to 
explore the previous panelist with you and your own thoughts.
    We're going to lead off with Victor Cha and then Mr. 
Revere, Leon Sigal, and then Nancy Lindborg.
    So, Victor, if you'd begin, that'd be terrific.

STATEMENT OF DR. VICTOR D. CHA, SENIOR ADVISER AND KOREA CHAIR, 
   CSIS, D.S. SONG PROFESSOR OF GOVERNMENT AND ASIA STUDIES, 
             GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Dr. Cha. Thank you, Mr. Chairman, Senator Lugar, members of 
the committee.
    It's a pleasure to appear before you again to talk about 
North Korea.
    I've submitted a statement for the record which I would 
like to be part of the record, and I wanted to focus my 
comments more on some of the discussion that took place during 
Ambassador Bosworth's testimony, in particular some of the 
questions I think the committee members were asking.
    The first was that the committee members were asking how 
the financial measures worked that were used in 2005 and there, 
essentially what we did was the Treasury Department issued a 
financial advisory--something called a section 311--to U.S. 
financial institutions, to beware of doing business with a 
particular bank in Macau that was thought to be holding North 
Korean accounts that were dirty.
    That was a very isolated action but it had the effect of 
causing many other banks around the world and regulatory 
agencies to ask why is the Treasury Department doing this? And 
when they understood the reason for it, they then under their 
own initiative started to either freeze North Korean accounts 
or ask that these accounts not be held in their banks, such 
that you had a tremendous ripple effect in the world that 
greatly impeded North Korea's ability to do business.
    Now this isn't the average North Korean because the average 
North Korean does not have an ATM card that they can take money 
out of the local Citibank. This affects largely the elite and 
the leadership.
    The second thing I would mention with regard to these 
financial measures is that when the Bush administration did 
them, they were largely a U.S. action where the United States 
was then going to other countries and regulatory agencies in 
Europe and elsewhere asking them to take certain actions.
    The big difference now is that a U.N. Security Council 
resolution that calls for the designation of certain entities 
for financial sanctions makes this much more of a multilateral 
effort, and I think it becomes much easier to gain cooperation 
among other countries, regulatory agencies and banks.
    The second point that I want to make, again addressing some 
of the questions in the earlier session, is this whole question 
of the inspections.
    To me, although we don't know everything about the U.N. 
Security Council resolution, to me what's most interesting is 
the effort, the very strong effort by the administration and by 
the Perm-5 to develop an inspection regime to counter the 
proliferation potentially of weapons or fissile material by 
North Korea.
    This is a very important step and institutionalizing some 
sort of inspection regime would, I think, even have more value 
added on account of proliferation side than the financial 
measures themselves.
    You assume that the financial measures would be taken after 
the nuclear tests, but to ramp up a strong inspection regime 
and counterproliferation regime that the Chinese and Russians 
would cooperate with would be a very useful thing for the world 
and for United States security interests.
    The big question of how North Korea reacts to these sorts 
of things--I think clearly when the Bush administration 
undertook some of these financial measures, many people argued 
it led to North Korea's first nuclear test and the question 
arises whether these financial measures will then lead North 
Korea to their third nuclear test, and I don't think we know 
the answer to that.
    We do know that they need to face consequences, as 
President Obama said, for their actions and this appears to be 
the best way to do it.
    I would agree with the points that were made earlier about 
China. I think China is very important on the pressure side to 
get the North Koreans to return to the negotiating table. There 
are all sorts of pressure that China can put on North Korea 
that are not reported in public trade figures. There's a wealth 
of interaction that takes place between the militaries and the 
parties of these two countries, between the leaders, 
individuals in both the militaries and the parties, where they 
can do things and send very clear messages that are effective 
in terms of persuading the North Koreans to come back to the 
table, but at the same time don't look like the Chinese are 
kowtowing to the United States--because the Chinese never want 
to be seen as kowtowing to the United States.
    Finally, in the few seconds that I have left, while I was 
part of an administration that took North Korea off the 
terrorism list, I do think that the administration should 
seriously consider putting them back on the terrorism list.
    We've had ballistic missile tests, a second nuclear test, 
and then, most recently, the taking of these two American women 
as detainees in North Korea, and I think that we should do 
whatever we can, the U.S. Congress, the administration, to get 
these two women out of the country because no American should 
be imprisoned in North Korea.
    Thank you for your time.
    [The prepared statement of Dr. Cha follows:]

   Prepared Statement of Dr. Victor D. Cha, Senior Adviser and Korea 
     Chair, CSIS, and D.S. Song Professor, Georgetown University, 
                             Washington, DC

    Senator Kerry, Senator Lugar, and distinguished members of the 
committee, it is my distinct honor to appear before you again to 
discuss the topic of North Korea. I offer my personal thoughts to you 
today based on my experience working this issue for the White House as 
deputy head of delegation to the six-party talks, and based on my 
research on the country as an author and academic.
    The latest statements out of North Korea appear to be telegraphing 
their next set of provocative moves. They have threatened everything 
from further ballistic missile tests, another nuclear test, withdrawal 
from the armistice, and cyber warfare. They demand that the U.N. 
``apologize'' for its punitive statement against the April missile 
launch. They have threatened to retaliate against any actions taken by 
the U.N. Security Council in response to their May 2009 nuclear test. 
They refuse to return to six-party talks. And in an unprecedented act, 
the North Koreans have sentenced two American journalists, Euna Lee and 
Lisa Ling, to 12 years of hard labor and reform. Should these two women 
be sent to labor camps in North Korea, they would be the first civilian 
American nationals ever to suffer such a fate.
    In the past, this litany of DPRK threatening actions was always 
understood as a tactic to get the attention of the United States and to 
draw Washington into bilateral talks. Indeed, this was often the 
argument that the Bush administration had to contend with whenever the 
North undertook provocative actions. And quite frankly, a very 
unhelpful dynamic developed in which the causes for North Korean bad 
behavior were pinned on U.S. diplomatic inaction rather than on North 
Korean intentions.
    The Obama administration managed to correct this vicious cycle. It 
came into office signaling its willingness to have high-level 
negotiations with Pyongyang through Special Envoy Stephen Bosworth's 
trips to the region. It has made clear to six-party members its 
commitment to the talks and to moving forward with the September 2005 
Joint Statement. Yet the North continues to threaten and refuses to 
come to the table.
    So what do they really want?
    I think the North wants three things. First, the North wants 
agreements with the United States that are ``election-proof.'' In other 
words, they want agreements that will outlast a change of presidencies. 
From their perspective, they have been victimized once before, when in 
2000 Pyongyang's leadership viewed themselves at the threshold of a new 
relationship with the United States that dissipated quite rapidly when 
the Bush administration took office. Arguably (and ironically), the 
Bush administration ended its 8 years in office trying to make 
agreements that were permanent, including the removal of the DPRK from 
the state sponsor of terrorism list. I believe the administration is 
correct to consider list reimposition for North Korea after the second 
nuclear test, but it is more complex to put a country back on the 
terrorism list than to take them off it.
    Second, the North wants arms control negotiations with the United 
States, not ``denuclearization'' negotiations. Their model is to turn 
the six-party talks into a bilateral U.S.-DPRK nuclear arms reduction 
negotiation, in which the North is accorded a status as a nuclear 
weapons state. The outcome of such negotiations, in Pyongyang's view, 
should be ``mutual'' nuclear arms reductions (i.e., not elimination of 
DPRK nuclear weapons) and confidence-building measures. During six-
party talks, the North Korean negotiators periodically referred to the 
United States-Soviet strategic arms control negotiations as their 
empirical referent. The ideal outcome of this negotiation, in the 
North's view moreover, is a situation like that of India. That is, an 
agreement in which the North is willing to come back under 
International Atomic Energy Agency safeguards and monitoring, but it is 
also assured of a civilian nuclear energy element. Most important, they 
would want to control a portion of their nuclear programs outside of 
international inspection, which in their eyes could then serve as their 
nuclear deterrent. They would certainly want a great deal in return for 
these ``concessions'' including energy assistance, economic development 
assistance, normalized relations with the United States, and a peace 
treaty ending the Korean war. But on the nuclear side of the equation, 
they want the rules of the nonproliferation treaty regime essentially 
rewritten for them as they were done for India.
    Third, the North wants a special type of ``regime security 
assurance'' from the United States. This stems from the fundamental 
reform dilemma that the DPRK faces, which I wrote about in Foreign 
Affairs in 2002: It needs to open up to survive, but the process of 
opening up leads to the regime's demise. Thus, what Pyongyang wants is 
an assurance from the United States that it will not allow the regime 
to collapse during a reform process.
    This is different from a negative security assurance. The negative 
security assurance was given to North Korea in the 2005 Joint Statement 
when the United States agreed ``not to attack North Korea with nuclear 
or conventional weapons.'' This statement--astounding on its own 
merits--led the Russian delegation to pull aside the North Koreans to 
tell them they believed that the United States was serious, based on 
their own cold war experience when Moscow could not get such an 
assurance from Washington. But this is not what the North wants. They 
want an assurance that the United States will support and bolster the 
regime in Pyongyang as the Kim Jong-il (or post-Kim Jong-il) regime 
goes through the dangerous and potentially destabilizing effects of a 
reform process.
    This type of regime assurance must be an even more prescient 
concern for the North Korean leadership given Kim Jong-il's 
deteriorating health condition. The likely leadership transition to Kim 
Jong-un, the youngest of his three sons who lacks any experience or 
revolutionary credentials, would be an inherently unstable process in 
the best of times. The fluidity created by this process in combination 
with the imperative for reform probably makes regime assurance an 
topline preoccupation.
    The first of these North Korean desires is certainly plausible for 
the Obama administration to do. If negotiations resume in the future, 
then North Korea's desires for ``irreversible'' steps by the United 
States would be met by our own desires for irreversible steps on their 
nuclear and missile programs. The second and third, however, are more 
problematic. An India-type deal for North Korea would create a crisis 
of confidence in the alliance with Japan as well as with the Republic 
of Korea. Any outcome that even hinted at U.S. tacit acceptance of a de 
facto residual nuclear capability in the DPRK could potentially 
undercut the credibility of American extended deterrence to its allies. 
The secondary and tertiary consequences of self-help action by Tokyo or 
Seoul would then have unhelpful ripple effects in the region. A 
guarantee of U.S. support for a crumbling Kim Jong-il regime would run 
anathema to every American value and human rights principles. Without 
any significant improvement in human rights in the country, it is 
difficult to imagine any President agreeing to proactively support the 
Kim family's continued rule.
    The recent presence of Deputy Secretary Steinberg and Special Envoy 
Bosworth in the region is commendable. The period afforded by 
Pyongyang's boycotting of the talks is a good opportunity to 
demonstrate continued American political commitment to the negotiations 
and to demonstrate squarely that a failure of the process rests at the 
feet of Pyongyang and not at those of Washington.
    Finally, the human rights abuses of North Korea have become even 
more clear given North Korean treatment of the two American 
journalists. Pyongyang may be trying to send a message with their harsh 
sentencing that they do not want world media drawing attention to or 
encouraging the outflow of refugees from the country. But Pyongyang has 
made their point with the sentencing and now needs to release the women 
as a humanitarian gesture. The longer they hold them, the harder it 
will be for Pyongyang to release them given the insulated leadership's 
concerns about not being seen as pressured by the outside world.
    The administration and Congress must exhaust every avenue of 
diplomacy to see to the release of these two women. If necessary, a 
high-level envoy should be sent to negotiate their return. Given North 
Korean negotiating habits, this envoy may have little transparency in 
advance whether his/her mission would be successful. An envoy of 
sufficiently high level must try, nevertheless. No American should be 
subject to imprisonment in North Korea.

    The Chairman. Thank you, Mr. Cha. We appreciate it. We'll 
get back to you on those.
    Mr. Revere.

 STATEMENT OF EVANS J.R. REVERE, PRESIDENT, THE KOREA SOCIETY, 
                          NEW YORK, NY

    Mr. Revere. Thank you, Mr. Chairman.
    I'm deeply honored to appear before this committee today. 
I'm here as somebody who has spent much of the last 40 years 
working on the Asia Pacific region, much of that on the two 
Koreas, China, and Japan.
    I'm also here today as someone who's been a long-time 
advocate of diplomacy with North Korea, and through several 
United States administrations during my career as a diplomat, I 
made the case that diplomacy, dialogue and mutual respect are a 
lot more likely to yield the results that America sought and to 
yield them at a more acceptable cost than were policies based 
on confrontation, and I base this judgment on years of studying 
North Korea and on hundreds of hours over some 12 years of 
negotiating with North Koreans.
    And through this experience, I came to understand what 
motivates the North Korean regime, its strengths and its 
weaknesses. My advocacy of negotiations with Pyongyang has 
always been based on two principles: The first is that North 
Korea's possession of nuclear weapons represents a direct 
threat to United States national security interests; and the 
second is that eliminating this threat requires a concerted 
diplomatic effort aimed at determining whether North Korea was 
prepared to make a strategic decision to give up its nuclear 
weapons ambitions in return for things that the United States 
might be prepared to offer.
    In the past, there were many times when American diplomats, 
including me, had very serious reason to believe that such an 
arrangement was possible and today, I am disturbed to report, 
this may no longer be the case.
    Today, there are disturbing signs that North Korea may 
finally have made a strategic decision about its nuclear 
weapons and that decision may be that Kim Jong-il intends to 
keep its nuclear weapons and that the North will seek 
recognition by the United States and the international 
community that it is now a nuclear weapons state.
    I'm drawn to this conclusion because of statements that 
North Korean officials have made to me over the last year and 
to virtually every American visitor to Pyongyang in recent 
months. It's also based on the DPRK's public utterances and 
actions with respect to its nuclear weapons capability.
    I am delighted to have heard so many references to former 
Secretary of Defense Perry's comment with respect to dealing 
with North Korea as it is. I accompanied Dr. Perry to Pyongyang 
on his historic visit in 1999 and I could not agree with that 
assessment more. Dealing with North Korea as it is, we are 
faced with the following facts:
    Just since the beginning of this year, North Korea has 
abrogated the 1991 North-South Denuclearization Accords. It has 
ousted IAEA inspectors from Yongbyon. It has walked out of the 
six-party talks. It has begun to restart its nuclear facilities 
at Yongbyon. It has conducted yet another nuclear test and it 
has done so in contravention of its own formal commitment to 
denuclearize.
    The Obama administration's response to all of this has been 
measured and calm but firm. Early on, President Obama appointed 
Ambassador Bosworth, my distinguished colleague of the last 30 
years, as his Special Representative, and for anyone who knows 
Ambassador Bosworth and his reputation, that appointment 
clearly signaled a United States intention to deal with 
Pyongyang at a high level and in a positive and pragmatic way. 
And many Americans who deal with North Korea, including me, 
were deeply impressed by President Obama's commitment to 
diplomacy and to resetting relations with adversaries. As a 
result, we conveyed to our North Korean interlocutors in the 
strongest possible terms in recent months that the arrival of 
this new administration was a historic opportunity to put the 
U.S.-DPRK relationship back on track.
    Unfortunately, North Korea has thus far rejected these 
overtures. In my longer statement, which I respectfully request 
be made a part of the formal record, I discuss what may be 
behind Pyongyang's actions and many of those points have been 
made earlier in this hearing.
    But to summarize, I think North Korea's recent behavior may 
have much more to do with its internal agenda than with its 
external relations. Whatever the reason, Pyongyang's actions do 
suggest that North Korea is seeking to establish a troubling 
and unacceptable new paradigm in relations.
    So where do we go from here? I think many of the steps that 
the administration has taken so far are right on the mark, 
including closer consultations with allies, and the other steps 
mentioned by Ambassador Bosworth. Taking all of those steps 
that have been mentioned by Ambassador Bosworth will exert 
clear pressure on North Korea, maximize solidarity with our 
allies and drive home the message to the DPRK that the path it 
is on will lead only to further isolation and suffering.
    Let me also say that I would strongly recommend that the 
United States keep the door open to people-to-people cultural 
and other exchanges with North Korea. These are important ways 
of exposing North Koreans to the truth and the truth is 
something that we can employ at great advantage in bringing 
about future change.
    Let me wrap up my comments by just saying it is not too 
late for North Korea to halt this free fall in relations with 
Washington and its neighbors. Pyongyang can still choose to 
accept the outstretched hand that has been offered to it. The 
United States is prepared, as it should be, to build a better 
bilateral relationship with Pyongyang based on mutual respect, 
nonhostility, and the complete end of the North's nuclear 
weapons program.
    In fact, those very principles used to form the core of the 
DPRK's own negotiating position. I would strongly urge 
Pyongyang to return to those principles.
    Thank you.
    [The prepared statement of Mr. Revere follows:]

Prepared Statement of Evans J.R. Revere, President, The Korea Society, 
                              New York, NY

    Karl Marx, who was not right about much, managed to get one thing 
right when he declared that things occur twice in history, the first 
time as tragedy, the second time as farce. Both tragedy and farce have 
characterized America's troubled relationship with the DPRK over the 
years. Today, there are signs that a new tragedy in this relationship 
may be in offing, this time of Pyongyang's making.
    In 1999, the DPRK left the four-party talks involving the two 
Koreas, China, and the United States, preferring instead to focus on 
bilateral dialogue with the United States. Pyongyang also slowed the 
pace and the productivity of U.S.-DPRK talks that had grown out of 
Presidential Special Envoy William Perry's historic effort to improve 
relations between the United States and North Korea.
    Both these moves severely reduced the chance that the United States 
and North Korea would be able to fulfill the potential of the U.S.-DPRK 
dialogue before the Clinton administration came to a close. The North 
Koreans were told as much by American officials, including me, at the 
time.
    After a long hiatus in senior-level bilateral talks, the North 
Koreans reengaged with the United States in October 2000 in a dramatic 
fashion. A senior officer of the Korean People's Army and First Vice 
Chairman of the DPRK's ruling National Defense Commission, Marshal Cho 
Myong Rok, came to Washington and met with President Clinton and his 
National Security team. In those talks, Cho and his American 
interlocutors made remarkable progress, reaching understandings on 
anti-terrorism cooperation and other issues and laying out the basis 
for a fundamental redefinition of the United States-North Korea 
relationship.
    This visit was followed less than 2 weeks later by Secretary of 
State Madeleine K. Albright's historic meeting with North Korean leader 
Kim Jong-il in Pyongyang, where the two conducted far-reaching 
discussion on the nuclear and missile issues that were at the heart of 
the United States concerns vis-a-vis North Korea.
    Following that meeting, however, an inconclusive and disappointing 
set of U.S.-DPRK negotiations on missiles in Kuala Lumpur in November 
2000 quickly sapped the momentum of the dialogue process. North Korean 
representatives insisted that only a visit by President Clinton to 
Pyongyang could resolve the missile issue. That idea was met with 
skepticism by many U.S. officials, including me, who were unwilling to 
risk such a visit out of concern that President Clinton could return 
from Pyongyang empty handed.
    As a result, the intense U.S.-DPRK engagement of late-2000 ground 
to a halt. As many on the U.S. side had feared almost a year earlier, 
the Clinton administration ran out of time to pursue further diplomacy 
with Pyongyang, and the press of other priorities, including the Middle 
East, compelled the President's attention elsewhere.
    Seen in retrospect, North Korea's decision to reengage so late in 
the Clinton administration was a major miscalculation. It meant that a 
process which had generated considerable hope and optimism would fall 
short. It also required the Clinton administration to pass the baton on 
this issue to the next administration--a step that had tragic (or, some 
would say, farcical) results.
    The story of U.S.-DPRK relations under the 8 years of the Bush 
administration is a familiar one and need not be repeated here. It was 
a period marked by mutual hostility and suspicion, broken agreements, 
lost opportunity, empty threats, miscalculation, and misperception.
    What little trust that had been built between Pyongyang and 
Washington quickly dissipated with the discovery that North Korea was 
secretly developing an alternative path to nuclear weapons development 
through uranium enrichment.
    Pyongyang's perceived perfidy opened the way for Bush 
administration figures to dismantle key agreements reached during the 
Clinton administration. One prime target was the 1994 Agreed Framework, 
which had successfully capped and frozen the North's known nuclear 
weapons program, but which was deeply opposed by some critics.
    On top of this, a belief by some senior Bush administration 
officials that the United States should not negotiate with ``evil'' 
virtually guaranteed that any serious effort to use diplomacy to 
resolve differences with Pyongyang would be dead on arrival.
    The predictable result of this policy approach was to open the door 
to North Korea's resumption of its nuclear weapons development and 
missile programs (it is often forgotten that, among the agreements 
abandoned by the Bush administration, was the one that had prevented 
the North from launching medium- and long-range ballistic missiles for 
7 years between 1999 and 2006).
    The eventual, tragic outcome of this approach was the October 2006 
nuclear test which, as a North Korean official told me last year, 
``changed everything'' in terms of how the DPRK viewed itself and its 
relations with the United States, and made it almost certain that the 
North would never agree to give up its nuclear weapons.
    Seen in retrospect, it is one of the ironies of history that a 
group of determined ``true believers'' who helped shape and promote the 
early Bush administration's North Korea policy effectively served as 
the handmaidens of Kim Jong-il's nuclear weapons program.
    The waning years of the Bush Presidency saw the administration 
adopt a radically different approach to dealing with Pyongyang, both 
out of necessity and a search for legacy. Aware that its policy on 
North Korea had produced only one substantial outcome--the creation of 
a new nuclear weapons state in Asia--the administration reversed 
course. And having little to show for its tenure other than years of 
unilateralist, confrontational, and divisive foreign policy, the 
administration tried a radically different approach on North Korea to 
score at least one ``win.''
    The Bush administration's 180-degree shift on North Korea left 
heads spinning and allies (particularly Japan, but South Korea, as 
well) dismayed and feeling betrayed. The Bush administration adopted a 
secretive, compartmentalized approach to diplomacy and policy 
formulation that kept allies, partners, and elements of the U.S. 
bureaucracy in the dark about the U.S. game plan.
    Ironically, this approach drew on the playbook developed in the 
first 4 years of the administration, when Secretary of State Powell and 
other moderates found themselves undermined and outflanked thanks to 
the work of what one former Bush administration official called a 
``secret cabal'' operating a parallel foreign policy.
    The opaque machinations of the late-Bush administration's North 
Korea policy even puzzled one senior North Korean diplomat, who used a 
meeting with visiting Americans in early 2008 to convey his own 
incredulity about the quiet assurances he was receiving from the United 
States.
    During this period, an administration that had once declined even 
to meet with the ``evil'' DPRK began to make major concessions to it. 
It opted to put off until the future the serious task of getting to the 
bottom of North Korea's proliferation of nuclear technology to Syria 
and its uranium enrichment efforts. Such was the extent of the 
administration's policy turnabout that it left even moderates and 
proengagement advocates worried.
    In the end, this approach produced a fragile freeze on the North's 
nuclear reactor at Yongbyon, the (readily reversible) destruction of 
the reactor's cooling tower, and a shaky verbal understanding on 
verification that began to unravel quickly as the Bush administration 
drew to a close.
    This was the situation that the new American President inherited in 
January 2009. Despite this flawed legacy, President Obama, who has a 
natural instinct for smart diplomacy and for putting the pressure on 
the other side to make the mistake of rejecting outreach, deserves 
credit for managing the North Korea issue well.
    Pyongyang, on the other hand, has played things terribly. 
Miscalculation, misperception, and internal politics appear to be 
driving the DPRK's policy in a dangerous and self-destructive 
direction.
    The Obama administration's rhetoric on North Korea has been 
generally measured, careful, and calm, with none of the empty threats 
and posturing that used to characterize United States statements on 
North Korea.
    The Obama administration reached out, both publicly and privately, 
to Pyongyang and clearly conveyed the United States intent to use both 
multilateral and bilateral diplomacy to address the nuclear and other 
core issues. President Obama appointed Ambassador Stephen W. Bosworth 
as his special representative to deal with North Korea--a step that 
signaled the United States intention to deal with Pyongyang at a high 
level and in a pragmatic way.
    The fact that Ambassador Bosworth is one of the few American 
officials ever to have negotiated successfully with North Korea and to 
have concluded agreements that actually worked should have been seen by 
the North Koreans as evidence of United States willingness to deal 
positively and constructively with them.
    During the Presidential campaign, throughout the transition, in his 
inaugural speech, and subsequently, President Obama has signaled an 
approach and direction to diplomacy with adversaries markedly different 
from his predecessor. At some political risk, he has reached out to 
Iran, Cuba, and to Venezuela.
    Listening to the President's rhetoric and observing his 
followthrough, there is no doubt in this observer's mind that the Obama 
administration was prepared to deal with Pyongyang in the same way, and 
the diplomatic signals reflecting this were all blinking green. Based 
on this, I and many other Americans conveyed to our North Korean 
interlocutors in the clearest possible terms our sense that the arrival 
of the Obama administration presented a historic opportunity to put the 
U.S.-DPRK relationship on the right track.
    Regrettably, North Korea seems to have a different agenda for the 
bilateral relationship. Its actions and response thus far suggest that 
it is not interested in the diplomacy of reconciliation and cooperation 
that President Obama seeks to pursue.
    The DPRK has responded to the Obama administration with an 
escalation of its rhetoric, including threats of war. Pyongyang has 
told visiting Americans that the DPRK should now be acknowledged as a 
nuclear weapons state and that even normalized relations with the 
United States will not change its nuclear status.
    The North Koreans have said to American interlocutors that the only 
price it might consider acceptable in return for the elimination of its 
nuclear weapons program would be the dissolution of the U.S.-ROK 
security alliance, the removal of United States troops from the Korean 
Peninsula, and the withdrawal of the United States ``nuclear umbrella'' 
from our Korean and Japanese allies.
    A senior Bush administration official was once quoted as saying 
that, as an empire, America was able to ``create its own reality.'' In 
making some of its recent demands, North Korea appears to be suffering 
from the same delusions.
    As if to confirm its intransigence in even more egregious ways, the 
DPRK welcomed the inauguration of the Obama administration and the 
outstretched hand mentioned in President Obama's inaugural address with 
an announcement of its preparations for a ``satellite launch.'' The 
DPRK delivered on its threat and conducted a launch, despite clear 
warnings from the PRC, the United States, and other members of the 
international community.
    The DPRK walked out of the six-party talks and threatened the ROK 
with war if Seoul joined the Proliferation Security Initiative (PSI). 
Pyongyang called for the United Nations to apologize for the Security 
Council President's statement issued after the missile test, and 
threatened to conduct additional nuclear tests, launch more missiles, 
and begin a uranium enrichment program if there was no apology. North 
Korea has now carried out a nuclear weapons test, making good on its 
promise to do so.
    The reasons behind Pyongyang's new belligerence remain unclear. 
There are signs that the DPRK's behavior may have a lot more to do with 
its complicated internal politics than with its international agenda. 
But whatever the cause, the DPRK has adopted a disturbingly hard-line 
approach toward the United States and others and has embarked on a 
course of escalating rhetoric and intensified hostility.
    On the core issue of whether it will ever give up its nuclear 
weapons, the DPRK's rhetoric suggests it has finally made a ``strategic 
decision'' regarding its nuclear program. Regrettably, that decision 
appears to be that it will keep its nuclear weapons and seek to have 
the United States and the international community recognize it as a 
nuclear weapons state. If that is indeed Pyongyang's goal, it raises an 
important question about what the purpose of renewed multilateral or 
bilateral talks would be if they are not aimed at eliminating the 
DPRK's nuclear weapons.
    Meanwhile, the DPRK has announced it is resuming operations at the 
Yongbyon reactor and nuclear weapons facility. It has ousted IAEA 
inspectors and American technicians from Yongbyon. This follows North 
Korean statements to an American visitor earlier this year that the 
DPRK had ``weaponized'' all of its existing plutonium.
    Faced with this grim situation, the camp of ``optimists'' in the 
United States, particularly those who still believe that the DPRK will 
ever give up its nuclear weapons at the bargaining table, has seen its 
ranks depleted.
    The North's actions and rhetoric have alienated many United States-
based Korea hands who had dedicated themselves to the cause of deeper 
and more comprehensive engagement with Pyongyang. North Korea has 
always found it easy to anger its enemies. Tragically, it is now 
perfecting the technique of alienating many of those who aspired to be 
its friends.
    Even in China, one can now hear voices saying that North Korea is 
increasingly seen as being a net liability for China. Yet the PRC 
remains hamstrung by its aversion to applying too much pressure on the 
North, lest it induce collapse.
    As suggested earlier, Washington has responded to the DPRK with 
calm and with a determination not to be provoked. It would seem that 
the days when bombast and brinksmanship could bring the United States 
and its allies scurrying to the negotiating table may be over.
    Washington has also made it clear to Pyongyang that the door to 
multilateral and bilateral negotiations remains open if the North 
wishes to walk through it. That is smart; it will serve to underscore 
that it is Pyongyang, alone among the six parties, which is rejecting 
dialogue.
    At the same time, the United States has intensified bilateral and 
trilateral consultation and coordination with its Japanese and South 
Korean allies; reassured them of United States commitments to their 
security; and obtained unanimous approval of a UNSC President's 
statement that reaffirmed sanctions on the North and declared 
Pyongyang's missile launch a contravention of UNSC Resolution 1718.
    Pyongyang's missile launch has stimulated even stronger interest in 
missile defense in Japan. Even South Koreans are beginning to talk 
about the need to build their own such defenses. The North's recent 
nuclear test has given rise to a debate in the Japanese and Korean 
media about pursuing the ``nuclear option'' in those countries.
    These developments have caught Beijing's attention. The PRC cannot 
be pleased that its North Korean neighbor and ``ally'' is compelling 
other countries in the region to reassess their defense options and 
take steps that could eventually undermine the effectiveness of China's 
strategic missile forces.
    So where are we now?
    The next move is Pyongyang's. If the North's recent rhetoric is any 
guide (and it should be), we are in for a very difficult period. 
Military incidents, more missile launches, and even another nuclear 
weapons test cannot be ruled out, especially since Pyongyang has ruled 
them all in. Whatever happens, the patience and solidarity of the 
United States and its allies and partners will be tested in the months 
ahead.
    All of this could be avoided if Pyongyang were to choose another 
path. However, there are worrisome signs that, for domestic political 
reasons, Pyongyang either cannot or will not do so.
    Regrettably, the DPRK has clearly misread the Obama administration, 
mistaking a sincere offer of a new relationship and a comprehensive 
dialogue as a sign of weakness. Instead of agreeing to work with a new 
American President clearly committed to a refreshing, new approach to 
international diplomacy, they have sought to test him.
    Pyongyang is probably surprised that the Obama administration has 
not risen to the bait of the North's provocative behavior. North 
Korea's leader also cannot be pleased that the DPRK's rhetoric and 
actions have not only failed to divide the United States from its 
allies, but on the contrary have helped the United States, South Korea, 
and Japan work more closely together than they have in 8 years. And the 
unanimous support in the U.N. Security Council for the recent 
President's statement probably cannot be sitting well in Pyongyang.
    Despite the dark place it finds itself in, there is still time for 
North Korea to repair the damage. Perhaps the DPRK's leader can begin 
to extricate his country from the box it is in by questioning the 
advice he is getting.
    One question he might ask his subordinates is: Why did you have me 
pursue policies which have angered the Obama administration, made the 
DPRK look like a international pariah, united America and its Asian 
allies as never before, driven food aid workers and their assistance 
out of the country, prompted China to support a UNSC statement, shaken 
the PRC-DPRK alliance relationship, and made Cuba, Venezuela, and even 
Iran look more reasonable in the eyes of the world than the DPRK?
    The North can still choose to respond positively to the 
conciliatory diplomacy of the Obama administration. Inviting President 
Obama's Special Representative for North Korea Policy to Pyongyang 
would be a good start. Perhaps the North's leader might also consider 
dispatching a high-level representative to Washington to shake 
President Obama's outstretched hand. Such a bold step has the potential 
to yield a better future for North Korea than will slapping that hand 
away. It will also help us avoid another tragic turn in U.S.-DPRK 
relations.

    The Chairman. Thank you very much, Mr. Revere.
    Mr. Sigal.

     STATEMENT OF LEON V. SIGAL, DIRECTOR, NORTHEAST ASIA 
  COOPERATIVE SECURITY PROJECT AT THE SOCIAL SCIENCE RESEARCH 
                     COUNCIL, BROOKLYN, NY

    Mr. Sigal. Thank you, Mr. Chairman.
    The Chairman. Pull the mike down and a little closer.
    Mr. Sigal. Thank you, Mr. Chairman, Senator Lugar, members 
of the committee.
    You have my written statement which I'd like entered into 
the record. It can be summed up in three very short points and 
leave lots of room for questions.
    First, we do not know many things we need to know about the 
North's nuclear program or about the way the regime works. We 
do not know what many people assert which is that the North 
won't give up its nuclear weapons.
    The fact is the more we say they won't, it only encourages 
our allies to fear that we are not trying to get the North to 
give them up through serious negotiations. So I would say that 
the only way we can find out what we need to know is sustained 
diplomatic give and take and we do not know whether the North 
is ready for that, but we've got to find out.
    Second, with respect to change inside North Korea, collapse 
is certainly a hope but hope is not a strategy. It seems to me 
the only strategy that can bring about much-needed change 
inside North Korea, however gradual and grudging, is sustained 
engagement and people-to-people exchanges, like the New York 
Philharmonic that the Korea Society arranged, where the North 
Korean people were exposed to something that undercut years of 
North Korean propaganda of hostility to the United States.
    There was the Philharmonic playing and there were tears in 
the eyes of some of those North Koreans in the audience and 
everybody in North Korea was exposed to it on their own 
television sets. It's an interesting way, however gradual, 
nothing grand, to bring about change.
    Finally, it seems to me the heart of our problem is that 
despite all the talk about sanctions and military possibilities 
and all options remain on the table, the sad fact is that we 
lack leverage to force the North Koreans to do what we want 
them to.
    The only way I know to get leverage is through engagement 
that gets them dependent on us over time and then if they don't 
live up to their obligations, those things can be stopped or 
withdrawn. I know of no other way to get leverage. It is a 
terrible fact that we're at the mercy to some extent of a 
regime that is hateful but we have to learn how to deal with it 
and a diplomatic strategy seems to me the only one that has a 
realistic chance of getting anywhere.
    Thank you.
    [The prepared statement of Mr. Sigal follows:]

     Prepared Statement of Leon V. Sigal, Director, Northeast Asia 
 Cooperative Security Project at the Social Science Research Council, 
                              Brooklyn, NY

    Mr. Chairman, members of the committee, thank you for inviting me 
to appear before you today. I have been involved in the North Korean 
nuclear and missile issue for the past 15 years, including conducting 
Track II meetings with senior North Korean officials, as well as with 
senior officials of the other six parties.
    I would like to address three issues today: (1) What we know and 
don't know about North Korea's intentions and the future of the current 
regime in Pyongyang; (2) our desire for change in North Korea and how 
to bring it about; and (3) our lack of leverage over North Korea and 
how to increase it. To address these issues, we need a new strategy.
                              uncertainty
    When we look at North Korea, we are rightly repelled by goose-
stepping troops and gulags, a regime motivated by paranoia and 
insecurity to dig tunnels and menace its neighbors, a command economy 
that makes little for the world to buy except missiles or other arms, a 
leadership that mistreats its people, a state that committed horrific 
acts in the past like its 1950 aggression and the 1983 Rangoon bombing 
that barely missed South Korea's President and killed 17 members of his 
entourage. It is one of our core beliefs that bad states cause trouble 
in the world. North Korea, with its one-man rule, cult of personality, 
internal regimentation, and dogmatic devotion to juche ideology is a 
decidedly bad state. That's what we know about North Korea.
    A wise analyst once wrote, ``Finding the truth about the North's 
nuclear program is an example of how what we `know' sometimes leads us 
away from what we need to learn.''
    What do we need to learn?
    There are widespread doubts about the accuracy of North Korea's 
nuclear declaration. We do not know with any precision how much 
plutonium North Korea has produced. Nor do we know the extent of its 
uranium enrichment effort. Nor are we sure whether North Korea has 
deliverable nuclear weapons or not. It says it does but its 2006 test 
did not demonstrate that. We do not yet know if its recent test did, 
either.
    What has North Korea been up to in nuclear and missile diplomacy 
with the United States? Again, we do not know. The prevailing 
assumption in Washington is that Pyongyang has always been determined 
to arm. Such an aim seems understandable enough for a militarily weak 
and insecure state, but it fails to explain two significant anomalies 
in its nuclear and missile activities over the past two decades:
    (1) As of today, the only way for North Korea to make the fissile 
material it needs for weapons is to reprocess spent nuclear fuel from 
its reactor at Yongbyon and extract the plutonium it needs for nuclear 
weapons. Yet North Korea stopped reprocessing in the fall of 1991, some 
3 years before signing the Agreed Framework, and did not resume until 
2003. It stopped again in 2007 and did not resume until now. It thereby 
produced significantly less plutonium for nuclear warheads than it 
could have.
    (2) The only way for North Korea to perfect ballistic missiles for 
delivering nuclear warheads is to keep testing them until they work 
reliably. Yet the North has conducted just three sets of medium-range 
missile tests and three tests of longer range Taepodong missiles in 20 
years.
    The timing of when it started and stopped its nuclear programs and 
conducted its missile tests suggests it has been pursuing a two-track 
strategy to ease its insecurity: On the one hand, arm to deter the 
threat of attack, and on the other hand, restrain arming as inducement 
for a fundamentally new political, economic, and strategic relationship 
with the United States, South Korea, and Japan. We do not know if that 
strategy has changed.
    Pyongyang's basic stance is that as long as Washington remains its 
foe, it feels threatened and will acquire nuclear weapons and missiles 
to counter that threat. But, it says, if Washington, along with Seoul 
and Tokyo, moves to end enmity and reconcile with it, it will no longer 
feel threatened and will not need these weapons.
    Does Pyongyang mean what it says? Most observers doubt it, but the 
fact is, nobody knows, with the possible exception of Kim Jong-il. We 
need to find out. And we need to find out exactly what he wants in 
return. The only way to do that is to probe through sustained 
diplomatic give-and-take--offering the DPRK meaningful steps toward a 
new political, economic, and strategic relationship in return for steps 
toward full denuclearization. All the speculation that it will never 
give up its weapons only encourages Pyongyang to think it won't have 
to--and worse, encourages our allies to think we are abandoning our 
goal of complete denuclearization.
    A second major source of uncertainty is the future of the North 
Korean regime if Kim Jong-il should die or be incapacitated. One thing 
is clear, whatever happens to him will make the North's nuclear and 
missile programs more of a risk. Why take the chance that his successor 
might be less able to make and keep a nuclear or missile deal or 
control North Korea's nuclear weapons and material? Doubts about Kim 
Jong-il's health make diplomatic give-and-take more urgent. Managing or 
ignoring North Korea, as some in Washington favor, is not a prudent 
policy, especially if the North becomes more unmanageable.
                         change in north korea
    Some believe that the collapse of North Korea is the only way to 
capture the North's nuclear and missile programs. When and if that 
might happen is unknowable. Waiting for its collapse while it adds to 
its nuclear and missile capacity is not prudent. Even worse, collapse 
would run serious risks that fissile material and missile technology 
end up in the wrong hands. Collapse is certainly a hope, but hope is 
not a strategy.
    Nor is regime change a credible strategy because none of North 
Korea's neighbors seem willing to run the risks of collapse. The only 
strategy that can bring about needed change inside North Korea, however 
gradual and grudging, is sustained engagement and people-to-people 
exchanges. That will require support for NGOs to work on the ground in 
North Korea and to bring North Koreans here and send Americans there 
for cultural, scientific and educational exchanges and business, 
agricultural, legal, financial, and other training.
    A good example was the concert given by the New York Philharmonic 
in Pyongyang, which received a warm, at times emotional reception that 
was broadcast nationwide in North Korea--a useful counterpoint to the 
steady diet of anti-United States propaganda Pyongyang usually feeds to 
its populace.
    Instead of encouraging expanded access, however, we have tried to 
withhold such exchanges for leverage, for instance, holding up a return 
visit to New York by North Korea's state symphony orchestra. Doing so 
gives us little leverage while denying us the benefit of engagement 
that can stimulate change inside North Korea.
                                leverage
    That example illustrates a larger point. The DPRK has nuclear and 
missile leverage. We are reduced to withholding visas for a symphony 
orchestra. That underscores just how little leverage we have to punish 
North Korea or compel its compliance. Military action has always been 
too risky because Seoul remains hostage, within range of North Korean 
artillery. Sanctions have never caused Pyongyang enough economic pain 
to make it yield to our will because none of the North's neighbors have 
been willing to impose stringent enough sanctions to risk collapse. And 
the North regards sanctions as confirmation of its conviction that we 
remain its foe, giving it a pretext to continue arming.
    While China will support tougher U.N. sanctions, Chinese officials 
have repeatedly stated that it has no interest in seeing either nukes 
or collapse in North Korea. Those who seek to induce or pressure China 
to cut off all food and fuel to the North want it to act contrary to 
its interests. This is hardly the time to put our relations with China 
in jeopardy over North Korea.
    The only way to stop North Korea from testing nuclear weapons and 
missiles and making more plutonium is diplomatic give-and-take, whether 
bilateral or six-party. That was what President Bill Clinton decided 
after the North launched its Taepodong-1 in 1998 in a failed attempt to 
put a satellite in orbit. Talks in 1999 led the North to accept a 
moratorium on test launches. When Kim Jong-il met with Secretary of 
State Madeleine Albright in October 2000, he offered to end not only 
tests, but also deployment and production of longer range missiles.
    President Bush also opted to negotiate in earnest after North Korea 
conducted its first nuclear test on October 9, 2006. Just 3 weeks 
later, on October 31, U.S. negotiator Christopher Hill met bilaterally 
with his DPRK counterpart and proposed a compromise end to the 
financial sanctions imposed in 2005. Negotiations yielded agreements 
that put Pyongyang on a path to disable its plutonium facilities at 
Yongbyon.
    In neither instance, however, did we sustain our promising 
diplomatic course, so we do not know how far we could have progressed 
toward our goal of eliminating North Korea's nuclear and missile 
programs and weapons.
    We do not know now, either.
    The step-by-step approach we have taken in six-party talks so far 
has failed to build much trust or give either side much of a stake in 
keeping any agreement, leaving Pyongyang free to use its nuclear and 
missile leverage. And use that leverage it has: Whenever it believed 
the United States was not keeping its side of the bargain, North Korea 
was all too quick to retaliate--in 1998 by seeking the means to enrich 
uranium and testing a longer range Taepodong-1 missile, in 2003 by 
reigniting its plutonium program and giving nuclear help to Syria, and 
in 2006 by test-launching the Taepodong-2 along with six other missiles 
and then conducting a nuclear test.
    The lesson that North Korea learned from 1998, 2003, and 2006, but 
we have not, is that we lack the leverage to coerce it to do what we 
want or punish it for its transgressions.
    It is applying that lesson now. On June 26, 2008, North Korea 
handed China a written declaration of its plutonium program, as it was 
obliged to do under the October 2007 accord. North Korea reportedly 
declared it had separated 38kg of plutonium, a total that was within 
the range of United States estimates, though at the lower end. In a 
side agreement with Washington, Pyongyang committed to disclose its 
enrichment and proliferation activities, including help for Syria's 
nuclear reactor. Many in Washington, Tokyo, and Seoul questioned 
whether the declaration was ``complete and correct,'' as required by 
the October 2007 agreement. The crux of the dispute is how much 
plutonium the North had separated before 1991. Here again, we do not 
know for sure.
    The United States decided to demand arrangements to verify the 
declaration before completing the disabling and moving on to the 
dismantlement phase of talks. The trouble was, the October 2007 
agreement contained no provision for verification in the second phase 
of denuclearization. The day the North turned over its declaration, the 
White House announced its intention to relax sanctions under the 
Trading with the Enemy Act and to delist the DPRK as a ``state sponsor 
of terrorism''--but with a caveat. As Secretary of State Rice told the 
Heritage Foundation on June 18, ``[B]efore those actions go into 
effect, we would continue to assess the level of North Korean 
cooperation in helping verify the accuracy and completeness of its 
declaration. And if that cooperation is insufficient, we will respond 
accordingly.'' She acknowledged Washington was moving the goalposts: 
``What we've done, in a sense, is move up issues that were to be taken 
up in phase three, like verification, like access to the reactor, into 
phase two.''
    In bilateral talks with the United States, North Korea then agreed 
to establish a six-party verification mechanism and allow visits to 
declared nuclear facilities, a review of documents, and interviews with 
technical personnel. These commitments were later codified in a July 12 
six-party communique. Undisclosed at the time, the North also agreed to 
cooperate on verification during the dismantlement phase.
    That was not good enough for Japan and South Korea. They demanded a 
written protocol, and President Bush agreed. The United States handed 
the North Koreans a draft on intrusive verification and on July 30 the 
White House announced it had delayed delisting the DPRK as a ``state 
sponsor of terrorism,'' until they accepted it.
    North Korean reaction was swift. Retaliating for what it took to be 
a renege on the October 2007 accord, it suspended disabling at its 
plutonium facilities at Yongbyon on August 14. It soon began restoring 
equipment at its Yongbyon facilities. On October 9 it barred IAEA 
inspectors from its Yongbyon complex.
    Disabling was designed to whittle away North Korea's nuclear 
leverage by making it more time-consuming and difficult for it to 
resume making plutonium. With the disabling in jeopardy, Hill met his 
DPRK counterpart Kim Gye Gwan in Pyongyang October 1-3, armed with a 
revised draft protocol. Stopping short of accepting it, Kim agreed to 
allow ``sampling and other forensic measures'' during the dismantlement 
phase at the three declared sites at Yongbyon--the reactor, 
reprocessing plant, and fuel fabrication plant--which might suffice to 
ascertain how much plutonium the North had produced. If not, he also 
accepted ``access, based on mutual consent, to undeclared sites'' 
according to the State Department announcement.
    President Bush's decision to proceed with the delisting angered the 
Aso government. Japan and South Korea insisted on halting promised 
energy aid without more intrusive verification arrangements. In the 
face of allied resistance, the Bush administration backed away from the 
October 2007 six-party accord. On December 11, the United States, 
Japan, and South Korea threatened to suspend shipments of energy aid 
unless the DPRK accepted a written verification protocol. In response 
to the renege, the North stopped disabling. In late January it began 
preparations to test-launch the Taepodong-2 in the guise of putting a 
satellite into orbit.
    We then imposed new sanctions, giving Pyongyang a pretext to 
demonstrate its nuclear and missile leverage and add to it. It is doing 
just that by reprocessing the spent fuel unloaded from the Yongbyon 
reactor in the disabling process. Extracting another bomb's worth of 
plutonium put it in a position to conduct another nuclear test without 
reducing its small stock of fissile material, which it has now done. It 
is also threatening to restart its uranium enrichment effort, which 
could take years to produce significant quantities of highly enriched 
uranium. Much worse, in just a matter of months, it could also restart 
its reactor to generate more spent fuel for plutonium. That would give 
it what it does not yet have--enough plutonium to export. That could 
also trigger a nuclear arms race in Asia.
    The experience of the last 8 years makes North Korea far less 
confident about its effort to reconcile with us and our allies and much 
more confident about acquiring additional nuclear and missile leverage. 
That makes it much more difficult for us to get Pyongyang to reverse 
course. In short, we do not know if we can get Pyongyang back on the 
road to denuclearization or how far down that road we can get. We need 
sustained diplomatic give-and-take to find out.
                             a new strategy
    The current crisis prompts a troubling question, how can Washington 
avoid having to react under pressure from Pyongyang, especially when 
the process of denuclearization could take years to complete?
    Accusing a self-righteous North Korea of wrongdoing and trying to 
punish has been tried time and again by the last three administrations 
over the past two decades. That crime-and-punishment approach never 
worked then and it won't work now.
    We need a new strategy, one that focuses sharply on the aim of 
reducing North Korea's leverage while adding to our own by easing its 
insecurity and expanding engagement and exchanges. Deeper engagement 
not only encourages change in North Korea. It is also our only way to 
enhance our leverage. North Korea may be willing to trade away its 
plutonium and enrichment programs brick by brick. We should be willing 
to give it some of what it wants in return. That would reward good 
behavior. It would also give us leverage to withhold if the North does 
not follow through on its commitment to disarm.
    To probe with an open mind what North Korea wants and what it will 
do in return, we need an internal policy review that crafts a roadmap 
to put more for more on the negotiating table--not a grand bargain, but 
a comprehensive list of sequenced reciprocal actions to normalize 
relations, sign a peace treaty, end enmity and reconcile with North 
Korea, easing its insecurity and isolation. In return for steps toward 
a new political, economic, and strategic relationship with Washington, 
Pyongyang needs to satisfy international norms of behavior, starting 
with a halt to exports of nuclear and missile technology--along with 
nuclear and missile tests--and then move to eliminate its nuclear and 
missile programs. In negotiating, we need to be clear about what we 
want at each step and honor the terms of any agreements we reach with 
Pyongyang.
    One possible roadmap of more for more might look like this:

  <bullet> Send a high-level emissary, someone with the stature of 
        former President Bill Clinton or former Secretary of State 
        Henry Kissinger who can get access to Kim Jong-il, and propose 
        a little more for more:

    <all> Complete the disabling of the plutonium facilities and the 
            disposal of replacement fuel rods in return for delivering 
            promised energy assistance on schedule and move on to 
            permanent dismantlement.
    <all> Begin verification of its plutonium production in return for 
            additional energy aid.
    <all> As inducement to a moratorium on nuclear and missile tests 
            and exports, begin a peace process on the Korean Peninsula 
            with a declaration signed by the United States and North 
            Korea, along with South Korea and China. In that 
            declaration Washington would reaffirm it has no hostile 
            intent toward Pyongyang and formally commit itself to 
            signing a peace treaty ending the Korean war when North 
            Korea is nuclear-free. It would then commence to negotiate 
            a series of peace agreements on confidence-building 
            measures.

    After consultations with South Korea and Japan, propose a lot more 
for a lot more:

  <bullet> Deepen economic engagement with agricultural, energy and 
        infrastructure aid bilaterally, multilaterally and through 
        international financial institutions as inducement to an 
        agreement to dismantle its nuclear facilities and its medium 
        and longer range missile programs along the lines of October 
        2000.
  <bullet> Begin constructing powerplants as North Korea dismantles its 
        nuclear programs and begins to turn over its nuclear material 
        and weapons.
  <bullet> Establish full diplomatic relations as Pyongyang dismantles 
        its fuel fabrication plant, reprocessing facility, and reactor 
        at Yongbyon with the aid of Nunn-Lugar funding, carries out the 
        verification of its plutonium production, adopts a plan for 
        verification of its enrichment and proliferation activities, 
        and holds talks with the United Nations on human rights issues, 
        such as opening its penal labor colonies to visits by the 
        International Committee of the Red Cross, and makes progress on 
        allowing free exercise of religion.
  <bullet> Commence a regional security dialogue that would put North 
        Korea at the top table and eventually provide negative security 
        assurances, a multilateral pledge not to introduce nuclear 
        weapons into the Korea Peninsula (a nuclear-free zone), and 
        other benefits to its security.
  <bullet> Complete powerplants, perhaps including a replacement 
        nuclear reactor, and sign a peace treaty once the North gives 
        up all its nuclear material and weapons.
  <bullet> Hold a summit meeting with Kim Jong-il in return for its 
        disposal of some plutonium--at a minimum the spent nuclear fuel 
        removed during the disabling process. At that meeting conclude 
        agreement on the above roadmap, which would then be subject to 
        six-party approval.

    By getting Kim Jong-il's signature on such a deal, President Obama 
would give Pyongyang a tangible stake in becoming nuclear-free. It 
would also give Washington its first real leverage: U.S. steps could be 
withheld or reversed if--and only if--Pyongyang doesn't follow through 
on commitments to give up its nuclear programs and arms.
    Will our allies go along with this strategy? Whatever the allies' 
misgivings about United States diplomatic give-and-take with the DPRK, 
letting North Korea's nuclear and missile programs run free will only 
aggravate alliance relations. United States failure to deal with the 
North Korean threat has already sowed unease in some quarters of Tokyo 
and Seoul about how much they can rely on Washington for their 
security. Their unhappiness with U.S. policy can best be addressed 
neither by deferring to their wishes nor by running roughshod over 
them, but by frank and thorough consultation. That includes serious 
discussion not only about our negotiating proposals but also about 
their security needs as long as North Korea remains nuclear-armed. 
Above all, it means making clear to our allies that we will not accept 
a nuclear-armed North Korea and that we remain committed to our goal of 
complete denuclearization of the Korean Peninsula.

    The Chairman. Thank you very much. Thanks for the summary.
    Ms. Lindborg, thank you very much.

     STATEMENT OF NANCY LINDBORG, PRESIDENT, MERCY CORPS, 
                         WASHINGTON, DC

    Ms. Lindborg. Thank you. Thank you, Chairman Kerry, Ranking 
Member Lugar, distinguished members of the committee.
    I'm pleased to be here today. We're certainly gathering at 
a time of increased tension and I would like to focus my 
comments today on a slightly different topic as a 
representative of a nongovernmental organization.
    I've submitted comments for the record and I'll try to 
summarize in a few key points.
    The Chairman. Thank you.
    Ms. Lindborg. The first is that there is an ongoing 
continuous engagement with U.S. nongovernmental organizations 
on meeting critical humanitarian needs within the DPRK.
    I've been involved in working on these issues since the 
emergence of the serious famine in the mid-1990s when my 
organization, Mercy Corps, responded to those very critical 
needs.
    There have been a handful, perhaps a dozen, of NGOs that 
have stayed engaged since then working on food security, 
health, water, sanitation programs, and sponsoring delegations 
and exchanges that work on technical, understanding, improved 
understanding between our peoples.
    This decade-plus of experience has enabled us to understand 
the realities, the constraints, the opportunities of how we can 
work together, and how we can understand the technical 
opportunities for improving the lives of the North Koreans and 
improving mutual understanding.
    Since the famine of the mid-1990s where estimates of those 
who died range from 280,000 to more than 2 million, the acute 
famine has definitely subsided. However, chronic food shortages 
remain and the U.N. estimated as of November of last year that 
there were still approximately a 1.8 million metric ton food 
shortfall which would leave 8.7 million of the most vulnerable 
without adequate food intake and nutrition.
    It's not famine conditions but it's chronic malnutrition. 
So my second point is that the need remains.
    My third point that I'd like to highlight is a brief 
description of the USAID-supported food program that recently 
ended. This was a groundbreaking program that shows us a way of 
how we can constructively engage on meeting real humanitarian 
needs that we understand exist. In 2008, USAID negotiated a 
protocol with the DPRK government in which there would be 
provision from USAID, 500,000 metric tons of American food. Of 
this, 400,000 went through the World Food Programme and 100,000 
went to a consortium of five NGOs.
    Mercy Corps was the lead. We were joined by World Vision, 
Global Resource Services, Samaritan's Purse and Christian 
Friends of Korea. All five of us brought more than a decade of 
experience in working on the ground in providing humanitarian 
assistance to North Korea.
    The groundbreaking aspect of this program was that the 
agreed-upon protocol between the two governments served as the 
basis for the NGO-negotiated agreement with our counterparts in 
the DPRK. This enabled us to, in a more accountable way than 
ever before, identify the need. We identified 900,000 children, 
elderly, pregnant and lactating women in the two provinces of 
our designated area as the beneficiaries of the food.
    We were able to indicate at all points of the distribution 
who the donor was and people were very clear that the food was 
a gift of the American people. We had significant levels of 
access from the port to the warehouses to the institutions, 
including household visits, and we were able to field a team of 
16 food monitors in-country for the entire 9 months of the 
program.
    Most importantly, this program serves how we can 
constructively work with our North Korean counterparts to 
develop and deliver a program that begins to meet international 
standards of food delivery based on needs that we agree upon 
and an approach that we jointly implement.
    As I note in my testimony, regrettably, this program was 
ended early at the request of the North Korean Government on 
March 31. However, all five of the participating NGOs as well 
as our other NGO colleagues continue our work, meeting 
humanitarian needs within North Korea, still focused on the 
very real needs around food security, health, water, 
sanitation.
    We all believe that humanitarian engagement is vital to 
maintain. The political tensions between the United States and 
DPRK governments remain well known. Humanitarian assistance has 
been one of the few areas of continuous positive steps forward 
throughout the last decade. We believe these humanitarian 
programs meet critical human needs and demonstrate the best of 
the American people, maintain open lines of communication with 
the North Korean people.
    Thank you very much.
    [The prepared statement of Ms. Lindborg follows:]

     Prepared Statement of Nancy Lindborg, President, Mercy Corps, 
                             Washington, DC

    Mr. Chairman and members of the committee, Chairman Kerry and 
Ranking Member Lugar, and distinguished Senators, thank you for the 
invitation to speak today. We are gathering at a time of particularly 
high tension between the United States and DPRK governments, as my 
expert colleagues will be able to address. I would like to focus my 
comments today on the experiences of United States nongovernmental 
organizations (NGOs) in addressing critical humanitarian needs within 
North Korea.
    I have been working on assistance programs in North Korea since my 
organization, Mercy Corps, first became involved in 1996. Even in the 
face of shifting political dynamics, humanitarian assistance has been 
effective through the last decade at making continuous progress in 
meeting real human needs while also promoting constructive 
communication with the North Korean people.
    In particular, I would like to highlight the recent USAID-supported 
food program that fed 900,000 North Korean children, pregnant women, 
and elderly who needed food. A precedent-setting agreement between the 
United States and DPRK governments gave the NGOs greater ability than 
ever before to ascertain need and accountably deliver food to the most 
vulnerable through a 16-person in-country team.
    This program provided an important model for how we might normalize 
humanitarian assistance based on international humanitarian standards. 
It also demonstrated the spirit and goodwill of the people of the 
United States toward the people of North Korea.
         a decade of ngo humanitarian engagement with the dprk
    Many U.S. NGOs, including my organization Mercy Corps, first became 
involved with the DPRK in 1996 during a time of serious famine. The 
NGOs mobilized to provide urgent relief assistance to the people of 
North Korea as news of the famine surfaced, with strong support from 
private donors.
    In 1998, the USG embarked upon its first large food assistance 
program in response to the famine, which continued through the year 
2000. A group of U.S. NGOs known as the Private Voluntary Organization 
Consortium (PVOC) monitored a portion of that food assistance. The 
lessons we learned from that 3-year food program proved invaluable for 
designing and implementing the most recent food program.
    Since those famine years, approximately a dozen U.S. NGOs have 
remained continuously engaged in providing humanitarian assistance. We 
have worked to build and maintain relationships within North Korea that 
have enabled us to work ever more effectively. Our programs address 
basic human needs such as health care and disease prevention, water and 
sanitation and food security. We have sent and received many dozens of 
delegations over the years, providing both technical education and, 
importantly, enabling people-to-people connections that seek to improve 
mutual understanding and communication.
    We have all relied upon private funding and the interest and 
support of our communities. For Mercy Corps, dedicated volunteers in 
our hometown of Portland, OR, have been steadfast supporters. They have 
given technical and financial assistance, traveled to North Korea and 
provided hospitality to visiting groups of farmers and members of our 
North Korean partner agency.
    As a result, many NGO workers have developed an understanding of 
the opportunities, constraints and realities of operating within North 
Korea. We have been able to work with the Health and Agricultural 
Ministries, as well as with provincial and county officials. We have 
also helped North Koreans better understand how we operate and deliver 
needs-based programming. We are all mission-driven organizations 
dedicated to provision of humanitarian assistance as well as to the 
importance of building bridges of understanding between people.
                      usaid food program 2008-2009
    The acute famine has subsided since the late nineties, but North 
Korea remains highly food insecure. In November 2008, the U.N. 
estimated that this year's food gap would equal approximately 1.8 
million metric tons. This means that over 8.7 million elderly, pregnant 
and lactating women, children in nurseries, kindergartens, and primary 
schools, children in residential institutions and in pediatric wards 
would require food assistance to meet their basic food needs.
    In 2008, officials from USAID, the National Security Council and 
the Department of State, working with officials from the Ministry of 
Foreign Affairs of the DPRK, negotiated a protocol that outlined the 
delivery of 500,000 MT of food over 12 months according to 
international standards for food programs. This groundbreaking protocol 
served to significantly normalize humanitarian assistance programs in 
the first USG food program since 2000.
    For this program, 400,000 MT of food was allocated to the U.N. 
World Food Program, while 100,000 MT were allocated to a consortium of 
five U.S. NGOs. All five NGOs--World Vision, Global Resource Services, 
Christian Friends of Korea, Samaritan's Purse, and Mercy Corps as 
lead--brought more than a decade of experience in humanitarian work 
inside North Korea, with significant understanding of the culture and 
longstanding relationships.
    The U.S. NGOs negotiated a separate Letter of Understanding (LOU) 
with the Korea America Private Exchange Society (KAPES), our partner 
agency within the DPRK, based upon the protocol agreement between the 
two governments. The LOU outlined in much greater detail the specifics 
of how the program would operate. The official protocol and resulting 
LOU equipped us to mount a program based on identified humanitarian 
need and international standards, with significant levels of access to 
all points of food delivery.
    Key provisions of our LOU included an initial needs assessment 
effort, signage at all distribution points that indicated the food was 
a gift from the American people and USAID, an agreed upon list of 
institutions and individuals targeted to receive food, the ability to 
track the food as it went from port to warehouse to distribution point, 
all the way to the beneficiary's home with a minimum of 24 hours 
notice; and the inclusion of Korean speakers on our team. We 
established two offices in the provincial cities of Huichon and Sinuiju 
plus a main office in the diplomatic compound in Pyongyang. These 
provisions are well in line with international standards.
    The program began with a rapid food security assessment in June 
2009, conducted over an 18-day period in our two target provinces of 
Chaggang and North Pyongyang (see attached map). The 10-person team 
interviewed county officials, the heads of kindergartens, nursery 
schools, orphanages and warehouses and conducted household visits. This 
assessment affirmed chronic levels of malnutrition within the DPRK. 
Critical key findings included:

  <bullet> The DPRK public distribution system is the primary source of 
        food for most North Korean citizens, with a stated provision of 
        600 grams of cereals per person per day. Rations had been 
        reduced to 350 grams in April, then down to 250 grams in May 
        and 150 grams in June, providing each recipient with a handful 
        of rice or corn per day;
  <bullet> Cereal stocks were anticipated to be exhausted by the end of 
        June 2008, in 24 of the 25 counties surveyed;
  <bullet> A decade of food insecurity had resulted in chronic low 
        birth weights, cases of malnutrition among children under 5 
        years of age and greater vulnerability to other illnesses.

    As a result, we identified a group of 900,000 ``most vulnerable'' 
beneficiaries within the 25 counties where the NGOs would operate, 
focusing on children under 5 years of age, pregnant and lactating 
women, and the elderly.
    Over the next 9 months, we fielded a team of 16 program monitors 
who lived for up to 8 months in country, 12 of whom lived in the two 
provincial field offices over the tough winter months. This team was 
supported with dozens of visits by technical support personnel.
    We trained more than 100 provincial and county officials in 
handling food as it transited from the port to their areas. We 
encountered numerous problems associated with moving large amounts of 
food, including bag miscounts, spillage and warehouse storage issues. 
Importantly, we were able to work with local officials to remedy these 
situations. Our ability to identify and jointly solve problems as they 
arose was an important positive feature of the program.
    We brought in 12 vehicles for the program, which were plated with 
yellow license plates that read AF1 through 12, signifying either 
American friends or American food, depending upon the translation--or 
both together as we sometimes heard.
    Our teams saw undeniable need among the people we served, and they 
also heard many thanks from the thousands of North Koreans with whom 
they interacted. During household visits, team members were welcomed 
graciously and usually offered the warmest seat of the house as a 
gesture of respect.
    Throughout the program, we frequently had to reaffirm or clarify 
key provisions of the LOU. Many times there were differing 
interpretations of critical issues. However, we were able to work 
constructively with our DPRK counterparts to solve problems as they 
arose and, as a result, meet the food needs of nearly a million of the 
most vulnerable, with a greater level of accountability and certainty 
than ever before.
    I would like to share a few critical factors that contributed to 
the success of this program--factors that have been the foundation of 
most NGO humanitarian programs:

  <bullet> Significant knowledge of the culture and country, including 
        longstanding relationships with individuals within KAPES, 
        enabling us to understand and solve problems that surfaced 
        along the way;
  <bullet> Ability to focus on technical level problem-solving;
  <bullet> Consistency in interaction and focus on humanitarian issues;
  <bullet> Follow through on commitments;
  <bullet> Flexibility when possible, within an overall framework based 
        on humanitarian need and action.

    The food program was, regrettably, prematurely ended on March 31, 
2009, at the request of North Korean authorities. The NGOs at that 
point had brought in 71,000 MT of the 100,000 MT allocated, with 50,000 
MT distributed according to the negotiated agreements. At the time of 
the program closure, 21,000 MT had not been fully distributed, with 
4,000 MT still at the port and the remainder in transit or in country 
warehouses. KAPES has since reported to us that these remaining 
commodities have been delivered according to the negotiated 
implementation plan with the exception of 4,000 MT that were reportedly 
used for food for work activities in the two provinces. We have not 
been able to confirm this distribution plan through independent program 
monitoring.
    The program, despite the disappointing early end and many 
challenges, set new precedents for working in the DPRK with normalized 
assistance programs that meet international standards. Above all, we 
believe we served to demonstrate the compassion and goodwill of the 
American people through provision of much-needed food as well as 
through thousands of conversations and individual contacts.
    All of the five NGOs that participated in the food program continue 
to work in the DPRK with ongoing programs focused on health, water 
sanitation, and food security. Three of the participating NGOs have 
made return visits to the DPRK since the closure of the food program to 
move forward ongoing assistance programs, with excellent cooperation 
from relevant authorities.
    We believe continued humanitarian engagement is vital to maintain. 
The political tension between the USG and DPRK governments is well 
known. Humanitarian assistance has been on the few areas of continuous, 
positive steps forward through the last decade. These humanitarian 
programs meet critical human needs, demonstrate the best of American 
values and maintain an important channel for people-to-people 
connection.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Thank you all very much.
    So, Mr. Sigal, when Kim Jong-il gets his debrief on what 
the Americans are saying about him today and they report that, 
well, you know, this guy named Sigal went before the Foreign 
Relations Committee and said all they have to do is get some 
leverage on him and then, you know, make him dependent, 
wouldn't they sort of have gamed that out? Isn't that maybe one 
of the reasons why they're very content just to remain isolated 
and not be dependent and if they went the opposite way, 
wouldn't they have offered it a little while back?
    Mr. Sigal. That may be, but he's promised his people not 
just a strong country but a prosperous one by 2012. He can't do 
that on his own. The only way he can do that is with a 
political accommodation with us, South Korea and Japan, that 
allows him to reallocate resources internally and get aid and 
investment from the outside.
    If he wants to give up on prosperity, I think that's 
trouble for him, and I think there is no sign he has changed 
that view. North Korean rhetoric remains the same. So at some 
point, I think he will come and want to deal with us.
    I also think he needs us for his security. He did not want 
to be dependent on China. His father didn't want to be 
dependent on China. That's why they reached out to us back in 
the late 1980s.
    I think those fundamentals don't change. North Korea lives 
in a dangerous neighborhood. If it can turn the former enemies 
into friends, it is much safer. So I think those things remain 
and those things ultimately will make him dependent on us.
    The Chairman. Then why do you think he's gone about it the 
way he has?
    Mr. Sigal. I don't know. I think it is possible to see what 
we have as a man who's trying to force us to be his friend, 
doesn't trust us, and he has somewhat reasonable grounds for 
not always trusting us, he has a much weaker country, and a 
Korean tradition where for centuries Korean leaders have made 
deals with the key neighbors rather than standing up to them.
    What his father did and what he did partly to legitimate 
their rule is stand up to all the great powers. That's very bad 
if he chooses to do it just with weapons, but as Colin Powell 
put it very well, he can't eat plutonium. If he chooses simply 
to stand up to the other powers and simply go for strength and 
not for prosperity, that's not a very good solution for him and 
it's certainly not a good solution for his successor whenever 
that person takes power down the road. So Kim Jong-il needs to 
move.
    The Chairman. So would--any of you can respond to this 
question.
    Is there any danger at all that in--just going back to the 
table and pursuing this route which I think you have to do it 
because I don't think you have many choices, but what is the 
danger level with respect to the reward of bad behavior 
argument?
    Mr. Sigal. Well, clearly what we want to do is reward good 
behavior and you only do things where, as I suggested, with a 
series of reciprocal steps. You only do things for them when 
they do things that you want them to and you structure the 
deals that way.
    The fact is we didn't always do that and that's a sad fact. 
North Korea behavior is inexcusable. What they're doing now, I 
don't have to tell you, is harmful to them, harmful to us, 
above all harmful to our alliance relationships down the road, 
which is a very important reason why we have to get back to 
this negotiating table and see what we can get.
    The Chairman. The flip side of that question, Mr. Cha, is--
sort of goes to your proposal with respect to redesignating 
them as a terrorist country.
    First of all, are there not specific legal standards that 
apply to that designation and do not these steps he's taken 
actually fall outside of them, but equally importantly, 
wouldn't that designation at this moment in time potentially 
just escalate the latter tit for tat and perhaps undermine the 
ability to get to the table where you need to do the 
constructive work of diplomacy, i.e., premature?
    Dr. Cha. Yes. Well,----
    The Chairman. If it applies.
    Dr. Cha. Right. Well, in terms of getting back to the 
table, I think everybody wants to get back to the table. The 
only way we get closer to anything resembling a freeze and a 
cap on the capabilities is through negotiation. So as bad as 
that might seem at the current moment, it's something that we 
eventually have to get
back to.
    You know, having been part of these negotiations for about 
3 years, as our Deputy Head of Delegation, I can tell you, sir, 
that I have very little confidence that the North Koreans are 
wanting to give up all of their nuclear weapons.
    I think they're willing to give up some of them for all the 
things that we've talked about, assistance, normalization, 
peace treaty, but in the end, they're not willing to give up 
all of them and that's a difficult thing for a negotiator to 
have to deal with as they go into a negotiation. Yet you still 
have to have negotiations because you want to maintain a cap, 
freeze, disable and be able to degrade their programs.
    On the question of the terrorism list, there are legal 
criteria for being put on and taken off this list, but I think 
it's also fair to say that it is also--there are also 
political--there's a political environment in which discussion 
of putting a country on or taking them off the list is quite 
relevant. And I think when North Korea was taken off the list, 
there were criteria that justified their being taken off the 
list, but there was also a broader framework in which that was 
happening, in which many people expected the North Koreans 
would live up to their end of the second phase of the six-party 
agreement, the verification protocol, and they did not.
    Since then, as you know very well, they've done a nuclear 
test, a second nuclear test, they're threatening a third 
nuclear test, and most recently, they've taken these two 
Americans and threatened to throw them for 12 years into a 
labor camp. That's not the right political environment and so I 
would appeal both on legal grounds as well as on the larger 
political grounds.
    The Chairman. Senator Lugar.
    Senator Lugar. Mr. Cha, you mentioned that in 2005, other 
countries voluntarily froze North Korean assets. We had the 
same situation in Macau. I think that's important because you 
point out if in fact we had a Security Council resolution and 
clearly a multinational idea here, that the sanctions leads to 
that form, it would be much more comprehensive and complete, 
and that they affect the leadership which is important.
    I suspect we can make some headway with some of the 
followers, but the leadership is what counts. Unfortunately at 
this particular moment, even thinking about negotiations, I'm 
really struck by the fact that after the negotiations we've 
been involved in, after Yongbyon is partially disassembled and 
so forth, this reversal is really striking and then beyond 
that, nuclear tests, missiles flying over Japan, and all the 
rest of it, we can speculate whether they're having an internal 
problem politically, but the effects on the rest of the world 
are very severe.
    I would be in favor really of moving very strongly toward 
the economic sanction route and bank accounts. I think that 
made a difference. I think that's where we got to the table to 
begin with. In fact, there had not been really much movement 
prior to that point.
    But I'm also intrigued by your thought about an inspection 
regime. Describe really what an inspection regime, a 
counterproliferation regime means or how that is set up.
    Dr. Cha. Well, I mean, the first point on that, Senator 
Lugar, is, as you know well, I mean, for denuclearization, we 
need a negotiation. If we don't have a negotiation, we have to 
focus on counterproliferation and I think what often gets 
missed in the media discussion of the inspection regime is they 
focus on the high seas interception where a comprehensive 
inspection regime--that would just be one small piece.
    Senator Lugar. Yes.
    Dr. Cha. The bigger areas would be the cooperation by the 
Chinese and Russians at ports in terms of container cargo, in 
terms of the practice of bunkering at third country ports as 
vessels that may be carrying bad North Korea things need to 
stop on their way to their final destination.
    If all of these things become part of a U.N. Security 
Council resolution and then, as Ambassador Bosworth said, there 
is an enforcement or monitoring mechanism within the U.N. 
Security Council of countries who are abiding by it, that would 
be a much more effective way of trying to counter proliferation 
than if the United States on its own, as we were doing during 
the Bush administration, trying to go out individually and 
persuade countries to do this.
    That was a much harder route and I think this process would 
be much more effective and would position the United States 
much better.
    Senator Lugar. I agree, and it seems to me the essential 
diplomacy right for the moment is with all the rest of the 
world.
    Dr. Cha. Yes, Senator.
    Senator Lugar. In due course, we may get into some 
diplomacy because the North Koreans do find it necessary, but 
our job right now is the Security Council, to make certain that 
if we go the economic banking route or if we try to set up a 
nonproliferation regime because, after all, the items that the 
North Koreans are getting revenue from, their major exports 
appear to be through these really dangerous substances, 
information, and weapons.
    So this is another essential cutoff and a very important 
one in terms of the security of the rest of the world, quite 
apart from whether we ever get to the table with the North 
Koreans, just in terms of our own safety and others in the 
process of all of this. That's why it seems to me your idea of 
the counterproliferation regime really needs some more 
explanation on your part and perhaps some greater information, 
if you publish such, or to give us some outlines in terms of 
our own thinking of how these things work, so the American 
people understand.
    Now, at the end of the day, the North Korean leadership may 
still say we're simply going to keep threatening the world, as 
they are. They're claiming if we put any of these sanctions on, 
we can expect war on their part. This is not a regime that 
looks to me like it's headed to the table happily and willingly 
and as you're saying, even if we got to the table, the 
reticence to give up all nuclear weapons, and have some 
accountability for this, you think is clearly a place too far.
    Why do you reach that conclusion?
    Dr. Cha. Well, I just--I feel as though, and this isn't 
just the second term of the Bush administration, we've been 
negotiating with North Korea for some 16 years and Evans Revere 
and others have been involved in this process during the 
Clinton administration. There have been several high-level 
envoys that have gone to North Korea. And yet this process 
still leads us only to the point where we got at the end of the 
Bush administration of a freeze and then the beginning of a 
process of disablement, in spite of the fact that all the 
things the North has asked for have been put on the table: 
peace treaty, normalization, economic and energy assistance, 
negative security assurance in the 2005 joint statement which 
says that the United States will not attack North Korea with 
nuclear and conventional weapons.
    So if security was driving their need for nuclear weapons, 
the negative security assurance and everything that came with 
the political and material incentives should at least offer 
them enough of an incentive to push harder forward on the 
process, yet in our negotiations they continued to falter when 
we got to the most crucial moments.
    Senator Lugar. Thank you.
    Mr. Sigal. If I might, Senator, without taking issue at all 
with port inspections and other things, I think we really have 
to keep our eye on the plutonium.
    The North has a likely response, although there's nothing 
certain about the North or what's going on there right now, 
which is to restart the reactor at Yongbyon which would 
generate more plutonium. I think we have to try to prevent that 
from happening and I don't know a better way than negotiation.
    I think we can't risk a war here. We have Seoul as a 
hostage and I think if you keep your eye on plutonium, right 
now they have a very limited supply, limited enough so that 
they had to reprocess in order to have enough for another test. 
They're going to have to test some more if they want to prove 
their weapons.
    I think we have some very serious stakes that go beyond the 
narrow issue of the plutonium. Think about an unconstrained 
North Korean nuclear program and its effects on the politics of 
Japan and how that plays back into the politics of China. That 
is the real security risk to the United States of America and I 
don't know any other way to stop it--granted it might not 
work--than through the negotiating process.
    Senator Lugar. I won't exceed my time, but I will say 
respectfully, Professor, of course we want negotiations. The 
whole point we're trying to make is the North Koreans have 
deliberately walked away from it, have shot missiles across 
Japan, have done a nuclear test. Of course you want 
negotiation, but until we really do something as an 
international community, I don't see much movement in that 
respect.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, for this most 
timely hearing and for all of you being here.
    I obviously sense, Mr. Sigal, Professor Sigal, that you 
think the outline that Mr. Cha has put forth is 
counterproductive to those----
    Mr. Sigal. I didn't say that.
    Senator Corker. So you think the broadness of sort of 
keeping proliferation from occurring is--that's too broad and 
we ought to focus only on plutonium? Is that what you're 
saying?
    Mr. Sigal. No. What I'm saying is you have to do both. We 
need to be able to impede the North from getting things it 
needs to make more nuclear weapons and missiles and from 
sending things abroad. We need to do that, but we can't stop 
there nor should we consider that the pressure we're putting on 
them now will have the immediate effect of stopping them from 
making more plutonium. That's part of our problem.
    I have no objection to part of what he said. I think we 
have to do that, and I'm glad that the Chinese are willing to 
join with us, but we should not see that as a solution and I 
think, if I heard Ambassador Bosworth say this, I think that's 
his view, as well. I think that's the administration's view, if 
I heard it correctly.
    I think that's very important here, and it is very hard. We 
should not--there's no grounds for optimism. It's just we don't 
have an alternative.
    Senator Corker. I sense in another breath your concern 
about war. You talked about the South. So it seems to me that 
there's a slight variation in what you're saying.
    I mean, what is it you think--you were talking about Mr. 
Cha's efforts or what he's put forth and how you may--you feel 
that may lead to war.
    So what it sounds like to me, if you----
    Mr. Sigal. I'm sorry. I didn't mean to be misunderstood 
that way. No, no. I think if you are trying to get rid of the 
plutonium facility by attacking it, that's a risk. That's a 
different thing from----
    Senator Corker. Yes. I would be pretty sure that would lead 
to war.
    Mr. Sigal. Thank you.
    Senator Corker. Let me just ask you this. What is it that 
we have specifically that you think they truly want at this 
time?
    I guess I hear you talking about the security issue. 
Certainly it seems to me that their actions do not indicate 
creating a partnership with our country as it relates to their 
security is what they're trying to achieve. So that doesn't 
seem sane that they would take the course they're taking if 
that's their objective.
    So could you outline what you truly think they're after 
that we have today? Maybe they're going a circuitous route and 
I'm missing something, but what is it today you think they're 
after that we have?
    Mr. Sigal. What this has been about, and we do not know if 
it is still about that, what they have told U.S. officials, the 
earliest I know is 1990, and they told Under Secretary of State 
Arnold Kanter that in 1992, was they wanted a strategic 
relationship with us--they wanted to be our ally, to put it in 
plain English. That was the way for them to get security.
    Do they still want that? I do not know. But if you think 
about--if you put yourself in--and it's very hard to do--put 
yourself in Kim Jong-il's shoes. How can he feel secure? Do 
nuclear weapons alone make him secure? I don't think so.
    But if he has a fundamentally new relationship with us, 
Japan and South Korea, that's a different story, but he can't 
count on that and he has seen that we've been reluctant to move 
that way and therefore he keeps threatening us with the nuclear 
program.
    But in the end, if you look, what we can't have a good 
explanation of it if we think it's just about nuclear weapons 
is why did he limit his production of plutonium over the past 
20 years?
    It is very hard to understand. It is very hard to 
understand why the North Koreans did not in fact test missiles 
over and over again until they had reliable missiles. They 
certainly have the capacity to do that. Something else is going 
on here and what I don't know is, is it still going on, but we 
have to find out.
    Senator Corker. Ms. Lindborg, you know, the notion of 
talking about prosperity in the year 2012 from his point of 
view, what was your experiences inside--what was your 
experience inside the country and your sense of his desire, if 
you will, based on what you saw, what your organization saw, in 
working with these other groups that there was a better well-
being, if you will, for the citizens of his country?
    Ms. Lindborg. Well, from the perspective of the last 13 
years, there's no question that North Korea's better off than 
it was in the mid-1990s when they were gripped with a very 
serious famine. Things have definitely improved since then, but 
as I noted, there's still a significant food insecurity, 
particularly when you go into the rural areas, which is what 
our programs have focused on.
    Senator Corker. But is there any--I mean, this would be--is 
there any sense within the agencies that there's any desire on 
the part of the leadership of North Korea that the standard of 
living, that the quality of life, that the people there who are 
living there, that they're even concerned about that? Is there 
any sense of that as you deal within that country?
    Ms. Lindborg. You know, we are not dealing at the highest 
political levels. So I would actually defer to my colleagues 
who may have better informed opinions than I do on that.
    Senator Corker. Mr. Revere, you want to comment?
    Mr. Revere. Over the years, in discussions with fairly 
senior DPRK officials, we have repeatedly had opportunities to 
discuss the welfare of their people and America's desire to 
help. It has been my experience over the years that at least 
the people we were dealing with were genuinely concerned about 
the welfare of their people.
    Many of the negotiations that I participated in in the past 
focused on the issue of food and humanitarian assistance and 
new projects designed at helping the North Korean people and I 
would say I have never encountered a DPRK official who brushed 
aside the needs of their people.
    The people that we were dealing with, the officials that we 
were dealing with, took this very seriously, so seriously that 
hours and hours and hours of negotiations were devoted to this 
topic of how can we best improve the lives of their people.
    Ms. Lindborg. Actually, Senator Corker, if I can just add 
on to that, it is undeniable that the recent food program that 
we just conducted had very high levels of approval and support 
and that was in and of itself, I think, important evidence of 
the desire for ensuring that there was well-being.
    Senator Corker. Mr. Chairman, thank you, and thank each of 
you.
    The Chairman. Thank you very much.
    We need to wrap up in a couple minutes. Just one quick 
question.
    The proliferation threat is the threat to the United States 
of America right now, barring some missile development that 
we're not aware of, but even then, strategically, 
fundamentally, the proliferation issue is the challenge to us.
    China, however, Russia, South Korea, and Japan have far 
more immediate and, frankly, pressing strategic concerns.
    Why can they not summon a stronger response, given their 
surrounding clout and already-existing leverage, particularly 
China?
    Mr. Revere.
    Mr. Revere. Senator, I've been talking with the Chinese 
since the late 1970s about North Korea and I find today a 
remarkable difference in the tone and content of our dialogue 
with the Chinese, in my conversations with the Chinese, from 
those days.
    I find more and more that Chinese officials, and 
particularly senior think tank representatives and former 
officials with whom I've had long relationships, are looking at 
North Korea in a very different way today.
    I've had a couple of Chinese officials actually use the 
term ``security liability'' in describing North Korea today. 
That's a remarkable thing for even semiofficial Chinese to say.
    The bottom line is that I think attitudes in Beijing are 
changing. We're starting to see op-eds conveying a more nuanced 
view. We're starting to see publications come out very clearly 
questioning past policy with respect to the DPRK.
    I think we are at an important turning point in terms of 
Chinese attitudes toward North Korea. I don't want to overstate 
this, but I think we are at a turning point.
    One final point on Japan. Japan has been very much focused 
on one issue in recent years: the abduction issue. A serious 
and emotional and important issue, yes, but I think Japan has 
focused to such a degree on that issue, that it has failed to 
focus as much attention as it should on other very immediate 
and important threats to Japan, such as the North Korean 
missiles.
    When the United States started to move away from fulfilling 
our part of the bargain on the missile moratorium that 
prevented North Korea from launching medium- and long-range 
ballistic missiles for the better part of 7 years, we did not 
hear great cries of opposition and anger from Tokyo that I had 
expected we would hear. That was very unfortunate, and one of 
the things that I hope we do when we get back to the table with 
the DPRK, and I believe we will eventually get back to the 
table with the DPRK, is put the missile issue back on the 
agenda.
    The Chairman. Well, let me--did you have a comment?
    Mr. Sigal. No. I just--one thing with respect to China. I 
don't think fundamental Chinese interests have changed yet.
    Instability in Korea is a problem for China, not simply 
nukes, and I think that means that to expect China, for 
instance, as some people hope for, to cut off all food and fuel 
to North Korea is to make it act contrary to its interests and 
I would say I think the chairman and certainly Senator Lugar 
knows this is hardly the time to put our relations with China 
in jeopardy over North Korea.
    The Chairman. Well----
    Mr. Sigal. We don't want to push it too hard, but China is 
going to do a lot more, I think, to get tough with North Korea 
and we will not only see it but they're going to do that. That 
I agree with, totally with Evans.
    The Chairman. Well, I don't think we're going to put our 
relationship in jeopardy over it. I don't think we're going to 
need to.
    Mr. Sigal. Right.
    The Chairman. You know, it's interesting in diplomacy and 
international relations, sometimes the biggest of opportunities 
are staring you in the face when things look the bleakest.
    I do not agree that just because of all this saber rattling 
and internal succession game going on and so forth, I'm not--
frankly, I'm concerned about the proliferation issue, but I'm 
not concerned that there is an impasse that we can't get over 
or there isn't a way to get back here.
    I believe ultimately, I think there are mistakes that have 
been made on our side of the fence over the last few years, 
too, and they don't get heralded enough, but, you know, there 
were some promises made about certain things being delivered 
and they were never delivered. There were misinterpretations 
about communication.
    The post-9/11 atmosphere altered, the axis of evil and 
other kinds of things, you know, Iraq had perceptions of a 
regime change in other countries. A lot of attitudes shifted 
and people responded to those things, and personally I believe 
that if we behave as confidently as we ought to, given the 
superiority of a number of strategic fronts on which we're 
sitting here, not to mention the presence of Russia, China, 
Japan, and South Korea, and South Korea and China alone are 
enormously strong and we will remain committed to Japan's and 
South Korea's strength, we got a lot of--you know, we've got a 
lot of cards to play here and so I'm really quite confident 
that if we play them adeptly and intelligently, I think North 
Korea's longer term interests with respect to a security 
arrangement, treaty, not an armistice from 1953 but an 
understanding of where we go and an economic future, I think 
there are ways to get through this.
    And so I think the key here is to get back to the table and 
not do things that make it harder to get there rather than 
easier.
    So that's just a quick summary take. I think your views 
have been helpful, important. I think it's good to air this and 
we have a distinguished visitor coming in about 5 minutes and 
so we've got to get over to the Capitol to meet him, and I 
apologize.
    I will leave the record open for a week for colleagues 
who'd like to submit any questions and we will certainly, if 
you want to articulate any further in answer to what I just 
said or anything any other Senator said, we will invite that 
because we'd like to have as complete a record as possible. We 
may just follow up with you to that effect.
    So thank you very much. I think it's been very helpful.
    We stand adjourned.
    [Whereupon, at 4:24 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


    Responses of Ambassador Stephen Bosworth to Questions Submitted
                    by Senator Robert P. Casey, Jr.

                            six-party talks
    The six-party talks were initially convened in 2003 to facilitate 
the verifiable and irreversible denuclearization of the Korean 
Peninsula. Late last year, North Korea decided to initiate a boycott of 
the six-party talks and followed up with the renunciation of a series 
of previously made international commitments. Accordingly, the six-
party talks, which some experts viewed as the potential genesis of a 
permanent regional security mechanism for Northeast Asia, have been put 
on the shelf, despite repeated calls by the other Members for North 
Korea to return to the talks.
    In its place, a series of bilateral consultations have taken place 
in recent months to consider next steps in response to North Korea's 
increasingly provocative actions. No regional grouping to bring the 
United States, China, South Korea, Japan, and Russia has convened to 
specifically address the situation on the Korean Peninsula.

    Question. Has the administration considered the notion of 
reconvening the six-party talks, inviting the North Koreans to attend, 
and if they refuse to do so, nonetheless proceeding with the talks 
among the five remaining Members--with an empty chair to symbolize 
North Korea's boycott?
    Would not such a step vividly demonstrate North Korea's self-
imposed isolation and facilitate a multilateral consensus among 
interested actors on next steps in response to North Korean 
provocations?

    Answer. The United States remains actively engaged in discussions 
with our partners in the six-party process. Since the last session of 
the six-party talks in December 2008, the United States has met and 
will continue to meet with each of the other five parties to coordinate 
our approach to North Korea. We will maintain our close consultations 
with our partners going forward on the best ways to coordinate our 
efforts and demonstrate a unified approach to the DPRK.
                        north korea's npt status
    Question. When the DPRK announced its withdrawal from the Nuclear 
Nonproliferation Treaty in January 2003, questions were raised over 
whether the withdrawal complied with the legal requirements for treaty 
withdrawal procedures. Namely, North Korea apparently failed to provide 
3 months notice as required under the treaty. However, the previous 
administration did not seek to challenge the legality of North Korea's 
withdrawal from the NPT.
    What is the current view of the U.S. Government on North Korea's 
status under the Nuclear Nonproliferation Treaty? Is the North Korean 
Government bound today by any of the provisions of the NPT?

    Answer. We will follow up with additional information in writing at 
a later date.
                     north korea's nuclear programs
    Question. How long will it take North Korea to (1) restore its 
plutonium reprocessing plant and begin operations, and (2) restore its 
5-megawatt reactor and begin operations? Will North Korea require 
outside assistance, imported parts, or imported fuel to restore the 
disabled facilities at Yongbyon?

    Answer. In its letter of September 3, 2009, to the United Nations 
Security Council, North Korea declared that ``reprocessing of spent 
fuel rods is at its final phase and extracted plutonium is being 
weaponized.'' We would refer you to the Intelligence Community for an 
assessment of this claim and for an assessment of the status of the 
other key facilities at Yongbyon, including the 5-megawatt reactor.

    Question. What is the current U.S. assessment of North Korea's 
suspected uranium enrichment program? Are there signs that North Korea 
has resumed steps in recent months to assemble and/or operate a uranium 
enrichment facility?

    Answer. On June 13, the day after the adoption of U.N. Security 
Council Resolution 1874, the DPRK Foreign Ministry issued a statement 
in which it announced that ``uranium enrichment work will begin. In 
accordance with the decision to build a light water reactors on its 
own, development of uranium enrichment technology to guarantee nuclear 
fuel has successfully progressed and has entered the test stage.''
    North Korea's September 3 letter to the Security Council also 
claimed that ``experimental uranium enrichment has successfully been 
conducted to enter into completion phase.''
    Rather than drawing any conclusions on such statements alone, we 
would refer you to the Intelligence Community for an all-source 
assessment.

                                  <all>

</pre></body></html>
